<html>
<title> - FISCAL YEAR 1998 SUPPLEMENTAL APPROPRIATION FOR BOSNIA AND SOUTHWEST ASIA OPERATIONS</title>
<body><pre>[Senate Hearing 105-534]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-534


 
 FISCAL YEAR 1998 SUPPLEMENTAL APPROPRIATION FOR BOSNIA AND SOUTHWEST 
                            ASIA OPERATIONS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations



                              <snowflake>



 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE

 49-463 cc                 WASHINGTON : 1998
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                        COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
           James H. English, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of William S. Cohen, Secretary of Defense, Office of 
  the Secretary, Department of Defense...........................     1
Statement of Gen. Henry H. Shelton, U.S. Army, Chairman, Joint 
  Chiefs of Staff, Department of Defense.........................     1
Opening statement of Hon. Ted Stevens............................     1
Statement of Hon. Robert C. Byrd.................................     2
Bosnia progress and troop levels.................................     7
Southwest Asia overview..........................................     8
Allied support of United States..................................     9
Importance of early action on supplemental.......................    10
Prepared statement of William S. Cohen...........................    11
Financing requested appropriations...............................    13
Timely approval of fiscal year 1998 supplemental appropriations..    13
General Shelton's overview on Bosnia.............................    14
General Shelton's comments on Southwest Asia and timing of 
  passage........................................................    15
Prepared statement of Gen. Henry H. Shelton......................    16
International war crimes tribunal................................    21
Politics among gulf states.......................................    22
Hardening bases in Bosnia........................................    25
Prepared statement of Senator Daniel K. Inouye...................    28
Prepared statement of Senator Barbara Boxer......................    29
Prepared statement of Senator Larry E. Craig.....................    29
Prepared statement of Senator Lauch Faircloth....................    30
Fixed end date versus open-ended.................................    31
Achieving milestones in Bosnia...................................    31
Ceasefire in Bosnia..............................................    32
Pilot retention and readiness....................................    32
Damage from failure to pass supplemental.........................    35
Balanced budget pressure.........................................    35
Balancing defense needs..........................................    36
Possible damage to readiness.....................................    37
Milestones leading to troop reductions...........................    38
Allocation of DOD inflation savings..............................    39
Funding for natural disaster repairs.............................    41
Anticipated funding shortfalls...................................    41
Spending on overseas facilities..................................    42
Allied contributions.............................................    43
Policy toward Iraq...............................................    43
Providing for forward deployed forces............................    44
Additional natural disaster funding..............................    45
Rotation plan for troops.........................................    45
Questions submitted to William S. Cohen..........................    50
Questions submitted by Senator Richard C. Shelby.................    50
    Continuing deployment of U.S. troops in Bosnia...............    50
    Bosnia and Southwest Asia--supporting the two MRC scenario...    51
Questions submitted by Senator Lauch Faircloth...................    51
    Departure date of U.S. troops from Bosnia....................    51
    Humanitarian projects in Bosnia..............................    52
    U.S. troop participation in nonsecurity activities...........    52
Questions submitted by Senator Frank R. Lautenberg...............    52
Questions submitted to Gen. Henry H. Shelton.....................    53
Question submitted by Senator Richard C. Shelby..................    53
    Bosnia-American military objectives..........................    53
Question submitted by Senator Lauch Faircloth....................    53
    Bosnia-U.S. participation....................................    53
Question submitted by Senator Frank R. Lautenberg................    53
    Bosnia-U.S. participation....................................    53

                                  (iii)


 FISCAL YEAR 1998 SUPPLEMENTAL APPROPRIATION FOR BOSNIA AND SOUTHWEST 
                            ASIA OPERATIONS

                              ----------                              


                         FRIDAY, MARCH 6, 1998

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 9:35 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Domenici, 
Bond, Burns, Shelby, Campbell, Byrd, Inouye, Hollings, Leahy, 
Bumpers, Reid, Dorgan, and Boxer.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF WILLIAM S. COHEN, SECRETARY OF DEFENSE
ACCOMPANIED BY GEN. HENRY H. SHELTON, U.S. ARMY, CHAIRMAN, JOINT CHIEFS 
            OF STAFF


                 opening statement of hon. ted stevens


    Chairman Stevens. Good morning, Mr. Secretary, General 
Shelton. We welcome you before our committee this morning, and 
appreciate your willingness to come to testify on very short 
notice. We believe there will be a number of Senators attending 
today's hearing. But I am going to ask my colleagues to 
withhold their opening statements so that we can listen to your 
statements first. I think that may reduce the number of 
questions.
    We are going to have your testimony, and then each member 
will have 5 minutes to make a statement or ask questions, and 
we will have as many rounds of questions as time permits. Since 
Senator Byrd and I will take our time first, we will go last on 
the question round.
    We meet today to review the request for $1.85 billion in 
emergency supplemental funds for the contingency operations in 
Bosnia and Iraq, and $172 million to repair facilities damaged 
in the Northeast, California and Guam. So the submission for 
Bosnia before Congress was mandated by legislation included in 
the 1998 Defense appropriations bill which was approved by the 
President. Section 8132 required the President to submit a 
supplemental request for Bosnia if he decided our forces would 
remain past June 30, 1998.
    The bulk of the request, $1.36 billion, actually pays for 
operations in Southwest Asia, to contain Iraq. For 1998, 
Congress appropriated $677.5 million for operations around 
Iraq. This request before us increases the total spending to 
meet the threat posed by Saddam Hussein to $2 billion for 1998. 
Unlike our deployment to the gulf 8 years ago, we now find 
ourselves virtually alone in paying the bills to meet the 
threat posed to our allies in the gulf.
    Our Arab allies have not publicly endorsed the use of 
military force against Iraq, and our Arab allies who are really 
the ones in immediate harm's way from Saddam Hussein, to my 
knowledge, have not provided any increased support for our 
military forces.
    In fact, it is my understanding they are not providing even 
the fuel and water necessary for the Air Force and the Army 
units we have already sent to Saudi Arabia and Kuwait over the 
past 3 months. We have to bring those supplies into the area or 
buy them there, and that is one reason I understand the request 
before us for Southwest Asia exceeds $1 billion.
    I do support providing the necessary funding in 1998 in 
this supplemental. But the American taxpayer should not have to 
pay all of the costs of containing Iraq alone.
    Following the passage of this supplemental, it is my plan 
to take this committee to the gulf region, to meet those allies 
and to discuss those questions. If our allies expect and rely 
upon our military protection, they should be full partners in 
the mission, including partners providing some of the needed 
resources for our armed forces for the period of this 
emergency.
    For Bosnia, the supplemental request in the budget 
amendment for fiscal year 1999 does show progress in reducing 
the size of our force and costs to operate in and around 
Bosnia. The total cost for the Army presence in Bosnia will 
decline from nearly $2 billion in 1997 to $1.38 billion for 
1999. The Air Force actually reduced spending below their 
estimate for 1998 by $57.7 million.
    At our insistence, the President submitted this request 
under the emergency designation, which will mean that we will 
not need to reprogram funds from the current defense program to 
pay for the bills for Bosnia or Iraq. If we had to find nearly 
$2 billion in offsets now, halfway through the fiscal year, 
such reprogramming, in my judgment, would seriously retard our 
modernization efforts, and we just cannot reprogram that much 
money again, in 1998.
    Our Nation bears a unique burden, as the sole remaining 
global military superpower. But that capability does not imply 
we must go it alone in every crisis, in every emergency.
    Gentlemen, it is our intention to work with you to get you 
the money you need to protect the safety, readiness, and 
quality of life for our military forces. We know this emergency 
has required you to spend funds needed to assure the continued 
readiness of our military for the balance of this fiscal year. 
Senator Byrd and I will urge our committee, the Senate, and the 
Congress to respond to the request for these emergency funds as 
quickly as possible.
    Now, let me recognize the former chairman of our committee, 
my great friend, Senator Byrd.


                    statement of hon. robert c. byrd


    Senator Byrd. I thank you, Mr. Chairman.
    Secretary, General Shelton, my colleagues, I join with my 
chairman in supporting the request for the fiscal year 1998 
amount. We were told last year that our forces would be in 
Bosnia for roughly 1 year. To put it charitably, the 
administration was being very disingenuous in saying that. And 
I am sure that most of us felt that, but we gave it a try.
    Now, the administration is no longer being so disingenuous. 
In its report it is saying that there is no end date. There is 
an indication that we are going to be there for a long time.
    And I note that the President's report indicates that we 
ought to show leadership in Bosnia, and so we are going to be 
there for quite a while. And the exit strategy indicates that 
we are there for nation-building, in my judgment. But we want 
to show leadership, says the report.
    In Iraq, we are not showing leadership. We have not been 
showing leadership. We have been tagging along after the United 
Nations. We get our orders and our instructions and our 
recommendations, apparently, from the United Nations. And some 
of those words may not be quite appropriate, but they make my 
point.
    I have been in the Senate 40 years, or soon will be, and in 
the House and Senate for almost 46 years. And this is a strange 
way of operating, in my judgment, especially since this 
administration came into power.
    We play along with the United Nations. We did that in 
Somalia. Congress finally came to its senses and used the power 
of the purse. And I assume the President is not going to line-
item veto anything in this bill, this supplemental. But we kind 
of came to our senses and drew a line and said, OK, this far, 
no farther. If it is going to go any farther, come back and ask 
for the money.
    So here we are now, we are being asked for the money to 
continue the now open-ended operations in Bosnia and the 
operations in Iraq. And we will be there quite a long time, in 
my judgment.
    I do not expect the U.N.-brokered agreement to hold up or 
be very productive. But we got ourselves into a trap by saying 
we will let the United Nations go there and we will wait on 
their recommendation. So it was pretty hard to turn down the 
recommendation once we had yielded that much ground.
    So we are in both areas. And when we look over our 
shoulders, we do not see very many other nations there behind 
us. The deployments to Bosnia and the Middle East are in the 
nature of permanent deployments of United States forces, based 
on permanent emergency funding. The pressure to end these 
deployments or to establish reasonable durations and exit 
strategies, end games, the pressure is dissipating rapidly. 
There are no tradeoffs with other programs, no pain that 
provides the pressure to transform and end them. The pressure 
to get our allies to fill in the slack is rapidly disappearing.
    The President has provided the certification required by 
the authorization and appropriations acts for fiscal year 1998, 
that the continued presence of U.S. armed forces is required 
after June 30, 1998, and an accompanying report. The report is 
revealing, in that the expected duration of our deployment is 
characterized as follows. ``We do not propose a fixed end date 
for the deployment.''
    Quite different from the situation last year. But we are 
there now. And so the administration is going to be a little 
more up-front with us. Thus, the pressure to get out and pass 
off the ground force role to our allies has evaporated.
    The exit strategy--in other words, the required condition 
for our forces to come out and come home--reads like a nation-
building strategy. In other words, required achievements 
include judicial reform, development of an independent media 
throughout the territory, democratic elections, free market 
economic reforms, an orderly minority return process, and so on 
and on. And this appears to me to be a formula requiring a very 
extended duration--certainly, several more years.
    I do not think this is an indefinite free ride. And I think 
we ought to let our so-called allies in on that secret. It is 
not an indefinite free ride. I believe that the terms of U.S. 
involvement are turning into a permanent force, with no 
pressure to get out, that the mission is sliding toward nation-
building, that the Europeans are not under any pressure, or 
very little at best, to replace our combat forces on the 
ground, which will remain, therefore, at permanent risk, and 
that the funding of some $2 billion per year through emergency 
supplementals is becoming the method of congressional support.
    Now, these funds are not going to be taken from 
discretionary funding, but there are still costs to the 
American taxpayer; $2 billion is not going to be charged 
against our discretionary funds, which are very, very limited, 
so they will be emergency funds. But they are still taxpayers' 
dollars.
    A similar permanency seems to be involved in Southwest 
Asia. We now have 30,000 troops in the region, waiting for the 
signal to go after the Iraqi regime, after we have announced 
for several weeks that we are going to go after them. We have 
given Saddam all the time that he could possibly have wished 
for to carry out his methods of deception, and, at the tune of 
$1.3 billion for this current fiscal year. Presumably we will 
have to expend a similar sum next year if the situation remains 
unchanged and we want to be ready to go after Iraq if and when 
the U.N.-brokered inspection regime fails.
    I would just note here my concern over what appears to be a 
quickly developing habit of American leadership through the 
permanent deployment of forces in theaters of potential 
conflict. There seems to be little or no discussion in these 
funding requests of sharing that burden with our allies. Why 
shouldn't they help pay this bill?
    Why shouldn't the Saudis? Why shouldn't the others in that 
region help to pay this bill?
    Since we are talking about biological and chemical weapons, 
this is a threat to all countries, it seems to me. Why 
shouldn't Japan, why shouldn't Germany, why shouldn't France, 
why shouldn't the other prospering nations of the world help to 
pay some of the bill?
    It is our manpower, in the main, that is stationed there. 
They are going to be soon sweating in the hot deserts.
    How about our taxpayers? Let us have some relief.
    Let us ask the other countries to belly up to the bar. If 
they will not send manpower, they can at least send money.
    The requests are now regularly based on provision of funds 
under emergency designations. And I am concerned over the open-
ended sweeping nature of the commitments we are undertaking in 
these deployments, now admittedly of indefinite duration. And I 
am also concerned that we are dissipating pressure for 
leadership roles on the part of our allies.
    It has been fashionable for the Congress to talk about exit 
strategies in regard to deployments of combat forces abroad. I 
note that the President's response to the questions of exit 
strategy on page 5 of his report outlines the conditions 
necessary to be created in Bosnia before we can depart. There 
is a long list. It included judicial reform in place, a 
democratic, independent media, implementation of democratic 
elections, free market reform, and so on.
    Now, let me tell you, I counted, in the President's report, 
40 nations that are involved in the Bosnian effort--40 nations. 
Am I correct in that, Mr. Secretary?
    Secretary Cohen. Approximately.
    Senator Byrd. Sir?
    Secretary Cohen. Approximately 40 nations, that is correct.
    Senator Byrd. Well, it is 40, if you count them in his 
report.
    It sounds like a great array of cooperation and mass 
strength. But I took the time to--I do not know how to use the 
calculator; I have to use pencil and paper--that is the old-
time way--and I asked someone the other day to break down some 
figures. They got out their calculator and they could not do 
it. Well, I said, take your pencil and paper. Well, they could 
not do that. They had calculators. There are lots of 
calculators in the Nation's schools, but few, apparently, 
students understand how to use the old math, and figure it out 
with pencil and paper.
    Well, I did this with pencil and paper this morning, Mr. 
Chairman. And let me tell you what these 40 nations are 
contributing. Fourteen nations out of the 40 contribute less 
than 100 personnel each. Fourteen out of the 40 nations 
contribute a total of 390 personnel. Fifteen nations, in 
addition to the 14, 15 other nations, contribute over 100 each, 
but less than 1,000, for a total of 6,766.
    Of the remaining 11 nations that contribute 1,000 or above 
each, only 4 nations contribute 2,000 or above--they being 
Germany, France, each with 2,500; the United Kingdom with 
5,000; and the good old United States with 8,500. In other 
words, two nations, the United States and the United Kingdom, 
bear the brunt of the effort. And we are talking about staying 
there now. No end game. No light at the end of the tunnel in 
sight. After we were told last year that we will be there 1 
year, about 1 year.
    I think the administration knew better than that when they 
were telling us that. But that is the runaround that we get. 
Then they come to the Congress. We take the recommendations of 
the United Nations. We follow that crowd along. And then we 
come down to where it hurts--putting the Nation's manpower, the 
men and women of the Nation, into areas of danger. And the old 
purse strings have Uncle Sam's taxpayers footing the bill.
    Apparently, nobody is making any effort this time to get 
other countries to help us in Southwest Asia. Now, we insisted 
on that a few years ago when we had the big 100-day war, I 
suppose it was. We insisted on the other countries bellying up 
to the bar. And they gave right much. But there is no effort 
this time.
    We have got to show leadership, says the report. But as we 
purport to show leadership in Iraq, we do not show leadership. 
We let the United Nations jerk us around. And it is not going 
to work.
    Now, Mr. Chairman, to make a long story short, I will 
support the fiscal year 1998 request. But I suggest that we 
wait a little while before we talk about the fiscal year 1999 
emergency funding request. It is about time that the 
administration learns that there is a third branch of 
government. It is an equal branch. And under the Constitution, 
if we will go back and read the Federalist essays and read the 
Constitution, we will find that this branch controls the purse 
strings.
    So, Mr. Chairman, I am in favor, as I say, of going along 
on the 1998 request. But we have got some time. Let us take a 
look at that fiscal year 1999 request. Let us not hurry. Let us 
not be stampeded. I do not intend to be stampeded into 
following the administration, no questions asked, just hand it 
up, whatever they request. And they will take their request up 
the line to the United Nations also, where they will get their 
recommendations. But we will just follow along, and open the 
taxpayers' purse strings and fund the bill. We are going to 
take it a little slowly on that.
    Now, there is some disturbing news in the paper this 
morning about what the Serbs are doing in Albania. And so 
perhaps all of the rosy stories about how the ethnic conflict 
was being controlled and all of that, do not look so good this 
morning. These are ominous, ominous headlines about what is 
happening in Albania. And that is what we have been concerned 
about, some of us, all along.
    And this may go to be something big. And I think we had 
better let our so-called allies know now that we cannot foot 
the bill and provide the great bulk of the manpower 
perpetually, and especially if this conflict is going to 
spread. We had better talk turkey to those people, and they had 
better respond.
    Now, Mr. Chairman, I have taken too much of the committee's 
time, but I feel strongly about this. I want to support our men 
and women there, but I think the administration--this 
administration and others--in recent years, they seem to think 
that they can have it their way with the Congress, get what 
they want, and then, when we get our men and women over there, 
we in the Congress have got to go along. The veil of 
disingenuousness has been stripped now. And so the 
administration is back. And there is no end game.
    A lot of this happened before you became Chairman of the 
Joint Chiefs, General Shelton, and some of it before you became 
Secretary, Secretary Cohen. There is going to be a day of 
reckoning, and we had better start adding up the costs now and 
letting our allies know that they had better belly up to the 
bar.
    I would like to see some efforts on the part of the 
administration to get our allies to come forward and help pay 
this bill. I am glad that the chairman is going to have the 
committee go over there. I am past 80 years old, but maybe I 
can make one more trip abroad.
    Thank you.
    Chairman Stevens. We would be happy to have you, Senator.
    Mr. Secretary and General, we would like to proceed with 
your statements now.
    Welcome. We are glad to have you here.
    Secretary Cohen. Thank you very much, Mr. Chairman, Senator 
Byrd, and members of the committee. I think a great deal has 
already been said about the request, and so I will try to 
summarize what I think is a brief statement that has been 
submitted for the record. But I will just try to touch the 
highlights.
    Chairman Stevens. We will print both statements in full in 
the record at the beginning of the hearing.
    Secretary Cohen. I could make a short statement very long, 
but I think that you would prefer to ask questions. And so I 
will try to be as brief as possible.


                    bosnia progress and troop levels


    With respect to Bosnia, as you have indicated, the fiscal 
year 1998 supplemental request is $487 million, pertaining to 
the planned extension of operations beyond June 1998. And the 
1999 amendment seeks $1.8 billion to continue those operations 
through the end of that fiscal year.
    I could take a lot of time to discuss what has been 
accomplished in Bosnia. I think many of you have had an 
opportunity to visit that country. In fact, we have seen about, 
I think it is, some 300,000 soldiers who are no longer in 
service over there. We have seen the return of some 400,000 
refugees. We have seen about one-third of the indicted war 
criminals taken into custody. Economically, that country is 
growing at a rate of between 50 percent in 1996--last year it 
was 37 percent growth. It is one of the fastest growing regions 
in the world today by virtue of the stability that has come to 
that country.
    So there are many positive things that, in fact, have been 
achieved. And I must say that I, while a member of this body, 
had my doubts about the wisdom of participation in Bosnia. I 
can say, having been there on many occasions since, that we 
have made an enormous difference in the lives of millions of 
people.
    I would also point out that one of the interesting things 
about our troops, they feel very good about the service they 
are providing to that country. It has the highest reenlistment 
rate perhaps of any region that our forces are stationed, in 
Bosnia, because the troops feel that they are indeed making a 
major difference in the lives of people who have known a lot of 
war and agony for quite a few years.
    With respect to our forces, we will be coming down to 
approximately 6,900. And this should be taken note of. 
Originally, when we got involved in Bosnia, we had roughly 
20,000 troops that were deployed to that country. And that is 
not counting the troops that would have been in the neighboring 
countries of either Italy, Croatia, Hungary, or Germany. But in 
Bosnia itself, roughly 20,000.
    Since that time, we have come down from 20,000 to 15,000 to 
10,000 to 8,500. And we project going to roughly 6,900. So the 
trend lines are in the right direction.
    It is our hope that these institutions that have been 
formulated will become sustaining over a period of time. And as 
Senator Byrd has pointed out, it is hard to fix an end date, as 
such, saying it will be completed by that time, but there has 
been enormous progress that has been made in just a very short 
period of time.
    Last week, we saw three indicted war criminals turn 
themselves in. If you would have asked me 1 year ago, would 
that have been possible, the answer would have been no.
    Last fall, we saw 14 war criminals turn themselves in. We 
have had several who have been apprehended by the British, by 
the United States, by the Dutch. And so there is enormous 
progress taking place.
    But one thing that we have learned in this turbulent 
century is that America's security and European stability are 
also intimately linked. And we believe that implementation of 
the Dayton accords is changing the conditions that made Bosnia 
a fuse in a regional powder keg. And our leadership has been 
essential to sustain that rate of progress.


                        southwest asia overview


    Let me turn, if I could, very quickly, Mr. Chairman, to 
Southwest Asia. We all know that Iraq precipitated this crisis 
when it sought to define who could come in as part of the 
inspection team to look at what facilities, under what 
circumstances, and when. That was precipitated last fall. We 
responded to it when Saddam Hussein immediately threatened to 
shoot down our U-2.
    Chairman Shelton and I conferred. We decided, obviously, 
that that could not take place and would not take place. And we 
deployed--asked the President to order the deployment of a 
second carrier. And from that time, we have augmented those 
forces in the region.
    As you correctly pointed out, we have roughly 33,000 to 
34,000 troops that are in the region, largely by the increase 
in the number of ships, but also we have had some ground forces 
deployed to Kuwait in order to prevent any kind of a move south 
by Saddam Hussein on a surprise attack.
    We intend to keep that level of force there as long as 
necessary. But in this particular request, what we are asking 
for is funding at the current level of operations through to 
the end of this fiscal year, which would carry us through to 
the end of September.
    This would not take into account, this request for the 
supplemental appropriation, would not take into account any 
need to use those forces, but simply to maintain them at their 
current operational pace. But that is what we propose to do, 
because Saddam Hussein has not given any indication that he 
intends to fully comply with the U.N. resolution and with that 
memorandum of understanding that was recently negotiated.
    Let me try to respond, Senator Byrd, to a number of issues 
you have raised.
    We are there, I think as everyone knows, not simply to 
protect the Saudis or the Kuwaitis or the gulf states. We are 
there because we have determined--I believe the line was drawn 
as early as President Carter's administration, when he said 
that we have a vital national security interest in that region. 
We have maintained that vital national security interest over a 
variety of administrations, Republican and Democratic.
    We are not operating under the instructions of the United 
Nations. We have been enforcing U.N. resolutions, which call 
for Saddam Hussein to fully comply with inspection regimes that 
would allow the inspectors to determine whether he is retaining 
any nuclear materials, any nuclear capability, any chemical or 
biological weapons. We know that he has lied consistently in 
the past about what he had in storage. That became apparent in 
1995 and 1996. And as a result of that disclosure, many of his 
stocks have, in fact, been destroyed.
    And what we intend to do is to continue to support the U.N. 
inspectors, so they can be on the ground, doing their job. A 
lot of people have suggested, why not just bomb? And the answer 
we have offered, and I think the right answer, is that bombing 
may make us feel good, it may diminish his capacity to inflict 
harm upon his neighbors, and possibly upon those far from his 
region one day, but it will not be an adequate substitute for 
having inspectors who are on the ground, knocking on doors, 
opening doors, and, in fact, seeking and overseeing the 
destruction of those weapons of mass destruction. There is no 
adequate substitute for that.


                    allied support of united states


    But barring their effectiveness, if he is to erect barriers 
to prevent them from carrying it out, then the President, along 
with our allies--and, Senator Byrd, let me indicate--you have 
said we look over our shoulder and there are not many behind 
us. There are some 25 nations who have pledged support. Some of 
it may not amount to a great deal, but it certainly amounts to 
a lot as far as our international standing is concerned, and 13 
out of the 16 NATO nations have pledged support. Sixteen out of 
the 19, if you include the new members who may be admitted as a 
result of Senate action.
    So we have had very strong allied support for our 
commitment to the region, in terms of forces. They may be 
small, but they are all that one would need.
    In fact, General Zinni, who will be here on the Hill with 
me later today, will tell you, if you were to call him, that he 
has everything that he needs in order to carry out a military 
option if it becomes necessary to exercise it. And he has been 
fully integrating those 25 nations who have offered support, 
ranging from ships to aircraft to demining and chemical 
detection capability. And whatever expertise they can offer, 
they are prepared to offer it. So we do have quite a few 
nations behind us.
    I would like to say also that some of that has come about 
as a result of congressional pressure. There was a very 
important conference that some of you attended. Senator Byrd, 
you have attended it in the past. It is called the Wehrkunde 
Conference, in Munich.
    And I might say, as a result of the Senate and House 
participation in early February in that conference, those 
members made it very clear to our NATO allies, you cannot 
continue to expect the United States to be concerned about 
interests which are primarily located in Europe, although we 
have an interest in it, if you are unwilling to support us in 
areas where you have an interest as well as we have an 
interest, and simply let us bear the burden.
    As a result of those very strong statements coming from 
Members of Congress, we saw an immediate raising of hands, 
saying how many are with us. So congressional voices can be 
critically important in that regard.
    The commitment to Bosnia. It is not open ended, Senator 
Byrd, as long as Congress has control of the purse strings. The 
President can propose to keep our forces there as long as he 
believes to be necessary. But the fact is that you are, if not 
an equal partner, maybe a superior partner. Congress controls 
the purse strings.
    Senator Byrd. Thank God.
    Secretary Cohen. Well, I am fully aware of the role of 
Congress in our constitutional system.
    Senator Byrd. And the Framers.
    Secretary Cohen. Mr. Chairman, let me stop here.
    I believe we could take some time to talk about the regime 
that has been outlined by the Secretary-General of the United 
Nations. He has negotiated a memorandum of understanding. If 
Saddam Hussein complies fully with that memorandum, then we 
will have been successful, in that we will get access to sites 
which have been ruled off limits for the past 7 years.
    If we are not successful in gaining access to those sites, 
then the process will have failed, as far as diplomacy is 
concerned, and we will have walked the last mile. One of the 
things that has been of concern to you and to me and to the 
chairman is the support from our friends in the gulf. They--and 
I just came back a few weeks ago from the gulf--those countries 
were, in fact, supporters.
    Are they worried about Saddam Hussein? The answer is yes. 
Are they eager to take a very prominent position in opposition 
to Saddam Hussein? The answer is no.
    They have to live in a neighborhood with a bully, a bully 
who is armed and dangerous. And so they have to look out for 
their interest at home situation as well as the need to be 
supportive of the United States. They have indicated that they 
are going to be with us. They wanted the United States to take 
the last diplomatic initiative.
    I spoke with all of them this week. They are very pleased 
with the fact that the United States was willing to walk this 
last mile, as far as negotiations with Saddam Hussein. And they 
are prepared to say, and have said, that we have done all that 
is necessary. If Saddam Hussein refuses to comply with the 
memorandum of understanding and the U.N. resolutions, he must 
bear the full consequences of his actions. I think that is 
pretty clear that they are with us.


               importance of early action on supplemental


    Mr. Chairman, let me just say that action on these 
requests--and I have not touched upon the natural disasters, 
but I think everyone is aware of what has taken place in Guam 
and also the damage caused by El Nino, and the ice storms. And 
I will be prepared to talk about those at greater length if you 
would like. But if we fail to have action on the supplemental 
by April, then the military services are going to have to start 
actions which would be adverse to our interests. It will 
require us to start cutting back on our training, which will 
have an impact upon readiness. It will start piling up some of 
the depot work. We will stop hiring a number of people. 
Contracts will be stretched out.
    There are a lot of consequences to the military if we do 
not have action by early April, because the planning has to 
begin at that time. And the chairman is in a much better 
position than I am to detail that. But I hope that the 
committee will recommend action before long. April is the 
timeframe, obviously, when you go out for the break and come 
back. But we need to start planning for these funds. And if we 
cannot plan on these funds and really count on them, then we 
are going to take measures which I think that almost everyone 
in the Senate and the House would find to be adverse to our 
interests as far as military preparedness is concerned.

                           prepared statement

    And I would just simply close by endorsing all of the 
requests contained in the supplemental. There are issues that 
go beyond simply the DOD portion. But I would add my support to 
all of those items contained in the supplemental request.
    Thank you.
    [The statement follows:]
                 Prepared Statement of William S. Cohen
    Mr. Chairman, members of the Committee, thank you for scheduling so 
promptly a hearing on President Clinton's request for emergency 
supplemental appropriations for fiscal year 1998 and for a budget 
amendment for fiscal year 1999. This statement will highlight the 
content of our funding requests, the President's proposals regarding 
financing of these appropriations, and the importance of timely action 
on our fiscal year 1998 package.
    The President's funding request for the Department of Defense (DOD) 
is summarized in the attached chart and has three major components:
    Bosnia.--To support the vital U.S. role in maintaining a peaceful 
environment in Bosnia, the fiscal year 1998 Supplemental requests $487 
million related to the planned extension of operations beyond June 
1998. The fiscal year 1999 amendment seeks $1.859 billion to continue 
Bosnia operations through the next fiscal year. Although NATO has not 
yet finalized the exact structure required for the follow-on-force in 
Bosnia, our cost estimates assume that the United States will 
contribute approximately 6,900 troops to the operation in Bosnia while 
maintaining about 3,100 support personnel in Croatia, Hungary, and 
Italy. This reduced force will allow for the continuation of currently 
assigned missions with the support of other NATO countries while 
providing for adequate force protection.
    We have learned in this turbulent century that America's security 
and Europe's stability are intimately linked. The Bosnia war saw the 
worst fighting and the most profound humanitarian disaster on that 
continent since the end of World War II. Implementation of the Dayton 
Peace Accords is changing the conditions that made Bosnia a fuse in a 
regional powder keg. American leadership remains essential to sustain 
the current rate of progress.
    U.S. and NATO operations in Bosnia have already achieved remarkable 
success. A stable military environment has been created, over 300,000 
soldiers have returned to civilian life, and 6,900 weapons have been 
destroyed. Public security is improving through restructuring, 
retraining, and reintegrating local police. Democratic elections have 
been held at all levels of government, and hard-line nationalists are 
increasingly marginalized. Independent media and political pluralism 
are expanding. Over 400,000 refugees and displaced persons have 
returned home. One third of the publicly-indicted war criminals have 
been taken into custody. Economically, substantial progress has been 
made in the Bosnian Federation, whose economy grew 50 percent in 1996 
and 35 percent in 1997. Political progress in the Serb portion of 
Bosnia has been notable, with a pro Dayton government gaining power and 
which is helping to create conditions necessary for economic progress 
there, as well.
    Continued U.S. participation in support of the Dayton Peace Accords 
is crucial because America has important national interests in ensuring 
that war does not resume in Bosnia, from which it could spread to 
elsewhere in the region. Stability in Europe and an international 
environment favorable to our future requires, as much as ever, resolute 
American leadership.
    Southwest Asia (SWA).--In response to Saddam Hussein's 
unwillingness to permit unrestricted access to UNSCOM inspection teams, 
the United States has deployed additional forces that are prepared to 
take appropriate action against Iraq, should the President determine 
that to be necessary. The fundamental U.S. goal has been to assure that 
UNSCOM has unconditional and unfettered access to all suspect sites, as 
called for by U.N. Security Council resolutions. Diplomacy, backed by 
the threat of force, has moved us forward toward achieving that goal.
    Iraq precipitated a crisis by trying to avoid its obligations under 
U.N. Security Council resolutions. It tried to dictate to the 
international community where UNSCOM could hold inspections, the manner 
in which inspections could be conducted, and the length of time they 
would continue. Iraq's effort failed.
    Last week, Iraq made a written commitment to provide immediate, 
unrestricted, unconditional access for the UNSCOM inspectors to all 
suspect sites. If fully implemented, this commitment will allow UNSCOM 
to fulfill its mission of finding and destroying Iraq's chemical, 
biological, and nuclear weapons and the missiles to deliver these 
weapons and instituting a system of long-term monitoring to make sure 
Iraq does not build more. This commitment applies to all sites anywhere 
in the country--not only to the eight so called ``presidential sites,'' 
but also to all sensitive sites, which up to now Iraq had tried to 
claim were off limits to UNSCOM. Any and all of these sites are subject 
to repeat visits. There are no deadlines for UNSCOM to complete its 
work. In short, for the first time, Iraq explicitly has committed to 
open every site throughout the country to the weapons inspectors.
    The Secretary General has provided assurances that UNSCOM Chairman 
Butler remains in charge of UNSCOM and all weapons inspections. The 
Special Team for the ``presidential sites'' will be part of UNSCOM, 
will report to Chairman Butler, and will operate under procedures 
developed by UNSCOM and the Secretary General, not Iraq. The Secretary 
General has made this clear to the Iraqis, as well. There are issues 
that still need clarification, notably with respect to the inspection 
procedures for the ``presidential sites.'' The U.S. has made clear that 
it expects all aspects of this agreement to reinforce the fundamental 
requirement that UNSCOM be permitted to carry out its inspections in a 
rigorous and professional manner.
    Earlier this week the U.N. Security Council unanimously adopted a 
new resolution that backs up this memorandum of understanding (MOU) 
with Iraq by warning Baghdad that it will face the severest 
consequences if it fails to fulfill its commitments.
    The President has made clear that, in the days and weeks ahead, 
UNSCOM must robustly test and verify this commitment. If Iraq 
implements the agreement, the weapons inspectors will for the first 
time have unrestricted, unconditional access to all suspect sites in 
Iraq, with no limits on the number of visits or deadlines to complete 
their work. If Iraq does not cooperate and we need to take action, we 
are in a stronger position internationally than ever before.
    The U.S. will keep military forces in the Gulf at high states of 
preparedness while we see if Iraq lives up to its commitments. The U.S. 
remains resolved to secure by whatever means necessary Iraq's full 
compliance with its commitment to destroy its weapons of mass 
destruction.
    For the purposes of the fiscal year 1998 Supplemental, we are 
requesting $1.361 billion to cover the added costs associated with 
sustaining our enhanced level of forces in the SWA region this fiscal 
year. These costs do not include any estimate for increased OPTEMPO 
levels that would occur during an actual campaign of armed hostilities, 
nor the related costs for expended munitions and cruise missiles, nor 
the costs for attrition losses.
    No additional SWA funds have been requested for fiscal year 1999. 
However, if these higher forces levels are needed beyond next 
September, the Administration will need to seek added fiscal year 1999 
funding.
    Natural Disasters.--To recover from damage to U.S. military 
facilities and assets due to natural disasters, $123 million in 
emergency fiscal year 1998 supplemental appropriations is requested. 
This would provide $121 million for damage in Guam from Typhoon Paka 
and $2 million for damage in the U.S. from ice storms. Most of these 
currently identified costs are for repair of facilities and replacement 
of damaged equipment, but some military construction and family housing 
expenditures are needed as well. An additional $50 million for the 
Department is also requested, to be made available contingent upon the 
Administration's submission of a later request.
                   financing requested appropriations
    Regarding the financing of this additional funding, President 
Clinton is requesting that DOD's fiscal year 1998 unfunded requirements 
be met by non-offset emergency supplemental appropriations. Similarly, 
the President is proposing a non-offset emergency fiscal year 1999 
budget amendment to fund the unanticipated costs of extending the U.S. 
mission in Bosnia through the fiscal year. The Administration included 
an allowance in the President's fiscal year 1999 budget of $3.2 billion 
to cover the costs of contingencies like Bosnia, SWA, and natural 
disasters.
    The Administration's plan to finance these unanticipated 
contingency operations is the only way to ensure support for our forces 
deployed to Bosnia and Southwest Asia and avoid damage to military 
readiness. Thus, I strongly urge the Congress to support the 
Administration's request. If fiscal year 1998 supplemental 
appropriations were required to be offset from funds currently 
available to the Department of Defense, the damage would be broad and 
deep. Non-deployed units would likely be forced to drastically curtail 
training. Troop inductions and civilian personnel hiring would be 
curtailed or halted. Research and production programs would be reduced 
substantially, driving up costs and delaying needed modernization. 
Civilian personnel might have to be furloughed. Requiring DOD budget 
cuts this far into the fiscal year would multiply the severity of the 
actions that would have to be taken to fulfill America's commitments in 
Bosnia and SWA.
    The President's fiscal year 1998 budget request and subsequent 
appropriations enacted by Congress did not accommodate nor anticipate 
these DOD funding requirements. The decision to maintain a significant 
presence in Bosnia and to confront Iraqi efforts to build and maintain 
a stockpile of weapons of mass destruction emerged after fiscal year 
1998 appropriations were completed. Moreover, the Defense topline set 
in the bipartisan budget agreement did not anticipate these added 
costs. The Department used the Quadrennial Defense Review to carefully 
construct a balanced Defense program that sustains the necessary high 
levels of readiness, but still funds modernization at levels that will 
ensure that future readiness is also protected. To now unravel this 
program by requiring funding offsets will undermine this balance and 
hurt readiness both now and in the future.
    timely approval of fiscal year 1998 supplemental appropriations
    I cannot stress enough the need for House and Senate action on our 
requested fiscal year 1998 non-offset emergency supplemental 
appropriations by early April. Without timely action, the significant 
costs of continuing our presence in Bosnia and responding to the crisis 
in Southwest Asia will begin to hurt force readiness. The risk to 
readiness will be especially acute because so many of our forces are 
deployed in major operations.
    Beginning in April, the Military Services must decide on the 
funding to allocate to their programs for the remainder of the fiscal 
year. Without assurances on supplemental funding, major expenditures 
could be curtailed or deferred. The Services could begin curtailing 
deferrable activities--consisting primarily of training, depot 
maintenance, and maintenance of real property. (Fixed costs such as 
salaries, utilities, and base support contracts are difficult to 
curtail in the short term.) Were that to happen, important training 
opportunities would be lost, and the readiness of our nondeployed 
forces reduced. While depot maintenance and real property maintenance 
programs are deferrable, late funding of them potentially disrupts 
activities and can result in the idling of certain functions, thus 
creating a logjam of backlogged work that cannot be accomplished 
expeditiously or efficiently.
                                closing
    In closing, let me join with the President to urge Congress to 
consider this fiscal year 1998 Emergency Supplemental as part of a 
comprehensive package together with requests for supplemental 
appropriations included in the fiscal year 1999 Budget, including 
additional funding for veterans compensation and pensions; requests 
transmitted on February 2, 1998 for the Department of State to pay U.S. 
arrears to the United Nations and other international organizations and 
for the International Monetary Fund; and requests for other important 
needs that were transmitted on February 20, 1998.

                                               CONTINGENCY FUNDING                                              
----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal year--                              
                                      --------------------------------------------------------------------------
                                                         1998                                 1999              
----------------------------------------------------------------------------------------------------------------
Bosnia...............................  $0.5 billion...........................  $1.9 billion.                   
Southwest Asia.......................  1.4 billion............................  TBD.                            
Natural disasters....................  123 million (+$50 million).............  ................................
----------------------------------------------------------------------------------------------------------------
Fiscal year 1998 costs to be met by non-offset emergency supplemental.                                          
Fiscal year 1999 costs to be covered by a non-offset emergency budget amendment covered by an allowance in      
  President's budget.                                                                                           

    Chairman Stevens. Thank you very much, Mr. Secretary.
    General Shelton, we are glad to have you here. We would be 
happy to have your comments.
    General Shelton. Thank you, Mr. Chairman, Senator Byrd, and 
distinguished members of the committee. I am very pleased to 
appear before you today.
    Chairman Stevens. Could I interrupt just a minute, General.
    Gentlemen, I would remind you, these microphones are all 
live, and it takes an awful lot to be able to hear the General 
back there if we talk in front of the microphones. Turn away 
from them, if you will, please.
    Thank you, General.

                  General Shelton's overview on Bosnia

    General Shelton. Yes, sir.
    I am very pleased to appear before this committee today to 
offer my views on the need for the supplemental funding for our 
ongoing operations in both Bosnia and Southwest Asia.
    Let me begin by saying that the Joint Chiefs and I are 
convinced that a strong military presence in both regions is 
essential if we are to safeguard our security, protect our 
interests, and maintain our position of world leadership. 
However, this presence must not come at the expense of either 
current readiness, quality of life, or modernization.
    As I know you appreciate, these are not issues that lend 
themselves easily to compromise. And so I am here to request 
your full support for the supplemental funds that we need to 
meet our demanding requirements around the world.
    In Bosnia, as Secretary Cohen outlined, much has been 
accomplished in the last 2 years, since the Dayton agreement 
was signed. And U.S. forces deployed as part of the NATO-led, 
multinational force have played a key part in that progress. We 
have brought stability to the Balkans, and we have kindled hope 
for a lasting peace. And we have shown the continuing relevance 
of NATO as the principal instrument of peace in Europe.
    We are proud of what has been accomplished, but much 
remains to be done to repair the aftermath of 4 years of brutal 
ethnic war. And the U.S. military will continue to play a 
significant role.
    SFOR, the NATO-led coalition of 37 to 40 countries, 
depending on which day you count, is hard at work doing just 
that, first, by preventing another outbreak of armed conflict; 
and, second, by providing a secure environment so that the 
civil and political tasks required by the Dayton accords can go 
forward. A stable, peaceful Bosnia, at peace with its neighbors 
and at peace with itself, is fundamental to stability in the 
Balkans and in Europe itself.
    For the present, the NATO nations have concluded that a 
continued military presence is necessary to achieve our 
objectives. But we believe we can prudently reduce our forces 
on the ground, from the 8,500 average of recent months, to 
about 6,900. The exact numbers and the composition of the 
follow-on force will be based on a formal statement of 
requirements that will be submitted by NATO in mid-March.
    These requirements will be derived from NATO's assessment 
of the security environment in Bosnia, the mission that the 
force will undertake and the level of risk that we are willing 
to accept. But it is clear that the U.S. contribution can be 
smaller, while still reflecting the key role we play in NATO 
and in SFOR, though the European nations will shoulder 
increased responsibilities.
    Let me assure you that force protection remains our No. 1 
priority. The United States contingent will be strong enough to 
defend itself against all threats that it is likely to 
encounter in Bosnia.

   General Shelton's comments on Southwest Asia and timing of passage

    In Southwest Asia, our latest dealings with Saddam Hussein 
confirm that Iraq will only comply with Security Council 
resolutions regarding weapons inspections when confronting 
overwhelming military strength and the clear resolve to use it. 
Thus, our strong military presence in the region is the 
indispensable component of our diplomatic efforts to force 
Iraq's compliance.
    United States military power, supported by military 
contributions from the other members of the international 
coalition, give unambiguous meaning to the expression 
``severest consequences for Iraq,'' embodied in last Monday's 
Security Council resolution.
    We are now at a critical juncture. And this is not the time 
to falter in our resolve. We know all too well that Saddam 
Hussein, in continued possession of his arsenal of chemical and 
biological weapons, represents a clear threat to the stability 
of the region, to our friends and allies who live there, and to 
our own vital interests.
    Mr. Chairman, we have looked closely at the cost of both of 
these critical operations. For the fiscal year 1998 
supplemental, we are requesting $500 million for Bosnia and 
$1.4 billion to cover the cost of sustaining the current force 
levels and operations in the Arabian Gulf for the remainder of 
the fiscal year.
    The request is an emergency, nonoffset proposal. Similarly, 
we are requesting a nonoffset emergency amendment of $1.9 
billion for fiscal year 1999, to fund the unanticipated cost of 
extending our mission in Bosnia through the fiscal year.
    If approved, all supplemental appropriations will be 
applied directly to the field and to the fleet. Without these 
funds, we will be forced to divert money, either from readiness 
accounts or from modernization, or both. If we transfer funds 
from readiness accounts, the services will suffer the impact.
    For the Army, O&M dollars would have to be diverted from 
training and maintenance, reducing some divisions to C-3 
readiness status by the end of this year. The Air Force would 
have to reduce their peacetime flying training early in the 
fourth quarter for flight crews not engaged in contingency 
operations. Many other combat aircraft units would be degraded 
to C-4 readiness status. With flight training curtailed, the 
critical shortage of pilots would be further aggravated.
    The Navy would have to postpone shipyard maintenance on 22 
ships, which would affect future schedules and degrade 
reliability and the long-term life of these ships. The 
readiness of our nondeployed carrier air wings would slip 
because of the impact on both training and maintenance. The 
Marine Corps would also have to defer important maintenance, 
take money from family housing projects, and postpone southern 
California storm repair damage.
    To prevent such serious impacts on readiness, training, and 
quality of life, the services must know by early April that 
they will receive nonoffset funding, and they will need the 
actual funding by early June. If we are forced to divert funds 
from modernization programs, we will fall even further behind 
the investment goals defined last spring in the ``Quadrennial 
Defense Review.''
    In fact, the supplemental funding that we are requesting is 
equal to 4 percent of each year's planned expenditures for 
modernization. That is twice the amount in this year's budget 
for modernization of the Army's main battle tanks and Bradley 
fighting vehicles. It is double the number of both Harriers and 
Ospreys in this year's procurement budget for the Marine Corps. 
It will buy more than a squadron of F-18's for the Navy. And it 
would buy eight new C-17's for the Air Force.
    Clearly, transferring money from modernization accounts is 
not an attractive option either. As the chairman's posture 
statement emphasized this year, for the fifth consecutive year, 
we must reverse the trend to defer modernization to help 
finance today's ongoing operations--operations which are vital 
to our national security. And reversing that trend will not be 
possible without supplemental funding.
    Mr. Chairman, without assistance from the Congress in 
funding the costs of these operations, we will pay a price in 
degraded readiness and quality of life, and find ourselves with 
an aging inventory of systems and weapons. Sometime, somewhere 
we will be asked to pay an even greater price, in American 
lives, because we doubt our resolve or our ability to exercise 
the leadership that is so essential to peace and prosperity 
throughout the world.

                           prepared statement

    Mr. Chairman, we are grateful for the support of this 
distinguished committee and the whole Congress for our men and 
women in uniform. I appreciate very much the opportunity to 
appear before you today and to state my views on these 
obviously very serious issues. And at this time, I will be 
happy to join the Secretary in taking your questions.
    Thank you.
    [The statement follows:]
              Prepared Statement of Gen. Henry H. Shelton
    Mr. Chairman, I am very pleased to appear before this committee to 
offer my views on the need for supplemental funding for our ongoing 
operations in Bosnia and Southwest Asia.
    Let me begin by saying that the Joint Chiefs and I are convinced 
that a strong military presence in both regions is essential if we are 
to safeguard our security, protect our interests, and maintain our 
position of world leadership. However, this presence must not come at 
the expense of either current readiness and quality of life, or 
modernization. As I know you appreciate, these are not issues that lend 
themselves easily to compromise and so I am here to request your full 
support for the supplemental funds we need to meet our demanding 
requirements around the world.
    In Bosnia, much has been accomplished in the two years since the 
Dayton agreement was signed and U.S. forces deployed as part of the 
NATO-led multinational force. We have brought stability to the Balkans 
and kindled hope for a lasting peace. And we have shown the continuing 
relevance of NATO as the principal instrument for peace in Europe. We 
are proud of what has been accomplished but much remains to be done to 
repair the aftermath of four years of brutal ethnic war and the U.S. 
military will continue to play a significant role. SFOR, the NATO-led 
coalition of 37 countries, is hard at work doing just that first, by 
preventing another outbreak of armed conflict and second, by providing 
a secure environment so that the civil and political tasks required by 
the Dayton Accords can go forward. A stable, peaceful Bosnia at peace 
with its neighbors and at peace with itself is fundamental to stability 
in the Balkans and in Europe itself.
    For the present, the NATO nations have concluded that a continued 
military presence is necessary to achieve our objectives but we believe 
we can prudently reduce our forces on the ground from the 8,500 average 
of recent months, to about 7,000. The exact numbers and composition of 
the Follow-on-Force will be based on a formal statement of requirements 
submitted by NATO in mid-March. These requirements will be derived from 
NATO's assessment of the security environment in Bosnia the mission the 
force will undertake and the level of risk we are willing to accept.
    It is clear that the U.S. contribution can be smaller while still 
reflecting the key role we play in NATO and in SFOR though the European 
nations will shoulder increased responsibilities. But let me assure you 
force protection remains our number one priority. The U.S. contingent 
will be strong enough to defend itself against all threats it is likely 
to encounter in Bosnia.
    In Southwest Asia, our latest dealings with Saddam Hussein confirm 
that Iraq will only comply with Security Council resolutions regarding 
weapons inspections when confronted by overwhelming military strength 
and the clear resolve to use it. Thus, our strong military presence in 
the region is the indispensable component of our diplomatic efforts to 
force Iraq's compliance. U.S. military power, supported by military 
contributions from the other members of the international coalition 
gives unambiguous meaning to the expression ``severest consequences for 
Iraq,'' embodied in last Monday's Security Council resolution. We are 
now at a critical juncture and this is not the time to falter in our 
resolve. Beyond that, we know all too well that Saddam Hussein, in 
continued possession of his arsenal of chemical and biological weapons 
represents a clear threat to the stability of the region to our friends 
and allies who live there and to our own vital interests.
    Mr. Chairman, we have looked closely at the cost of both of these 
critical operations. For the fiscal year 1998 supplemental, we are 
requesting $0.5 billion for Bosnia and $1.4 billion to cover the cost 
of sustaining the current force levels and operations in the Arabian 
Gulf for the remainder of the fiscal year. This request is an emergency 
non-offset proposal. Similarly, we are requesting a non-offset 
emergency amendment of $1.9 billion for fiscal year 1999 to fund the 
unanticipated costs of extending our mission in Bosnia through the 
fiscal year. If approved, all supplemental appropriations will be 
applied directly to the field and to the fleet. Without these funds we 
will be forced to divert money either from readiness accounts or from 
modernization or both.
    If we transfer funds from readiness accounts, the services will 
suffer from the impact. For the Army, O&M dollars would have to be 
diverted from training and maintenance, reducing some divisions to C-3 
readiness status by the end of the year. The Air Force would have to 
reduce peacetime flying training early in the 4th quarter for flight 
crews not engaged in contingency operations. Many other combat aircraft 
units would be degraded to C-4 readiness status. With flight training 
curtailed, the critical shortage of pilots will be further aggravated.
    The Navy would have to postpone shipyard maintenance on 22 ships, 
which will affect future schedules, and degrade reliability and long-
term life of the ships. The readiness of non-deployed carrier air wings 
would slip because of the impact on training and maintenance. The 
Marine Corps would also have to defer important maintenance, take money 
from family housing projects, and postpone Southern California storm 
damage repairs.
    To prevent such serious impacts on readiness, training, and quality 
of life, the Services must know by early April that they will receive 
non-offset funding, and they will need the actual funding by early 
June.
    If we are forced to divert funds from modernization programs, we 
will fall even further behind the investment goals defined last spring 
in the Quadrennial Defense Review.
    In fact, the supplemental funding we are requesting is equal to 4 
percent of each year's planned expenditure for modernization. That is 
twice the amount in this year's budget for modernization of the Army's 
main battle tanks and Bradley Fighting Vehicles. It is double the 
number of both Harriers and Ospreys in this year's procurement budget 
for the Marine Corps. It will buy more than a squadron of new F/A-18's 
for the Navy. And it would buy 8 new C-17's for the Air Force. Clearly, 
transferring money from modernization accounts is not an attractive 
option either. As the Chairman's Posture Statement emphasized this year 
for the fifth consecutive year we must reverse the trend to defer 
modernization to help finance today's ongoing operations which are 
vital to our national security. And reversing that trend will not be 
possible without supplemental funding.
    Mr. Chairman, without assistance from the Congress in funding the 
costs of these vital operations we will pay a price in degraded 
readiness and quality of life and find ourselves with an aging 
inventory of systems and weapons. Sometime, somewhere, we may be asked 
to pay an even greater price in American lives because some may doubt 
our resolve or our ability to exercise the leadership that is so 
essential to peace and prosperity throughout the world.
    Mr. Chairman, I am grateful for the support of this distinguished 
Committee and the whole Congress for our men and women in uniform. I 
appreciate very much the opportunity to appear before you to state my 
views on these very serious issues. At this time I will be happy to 
answer any questions you may have. Thank you very much.

    Chairman Stevens. Thank you very much.
    I would state to the committee that the 1999 request is not 
before the committee at this time. Senator Byrd has stated his 
position on that, and I welcome your making comments about it, 
but the two witnesses are here to discuss the 1998 supplemental 
emergency request, and I would urge the members to concentrate 
on those requests before us.
    As I said before, we are going to go on the early bird 
rule, with a 5-minute limitation, and I hope the Senators will 
cooperate with that. It is my understanding we have two votes 
starting at 11 a.m., and we will continue as long as the 
witnesses can remain to accord the members the opportunity to 
make their statements.
    I welcome the statements of Senator Byrd. That is why I 
decided to take the committee to both Iraq and to Bosnia--
actually to Belgium, to talk to the NATO people--sometime 
before we mark up the 1999 bill, and I hope that all members 
will come. I hope it will be the first time in history we take 
every member of the committee, in two planes, and go over 
there, and let them know our resolve. We are not going to pay 
this bill alone.
    Our first Senator is Senator Campbell.
    Senator Campbell, you are recognized for 5 minutes.
    Senator Campbell. Thank you, Mr. Chairman.
    I think I would prefer to just make a statement before I 
get into any questions, if we only have 5 minutes, Mr. 
Chairman.
    Chairman Stevens. You may use the 5 minutes in any way you 
wish.
    Senator Campbell. OK.
    Mr. Secretary, welcome. General Shelton, welcome.
    I have to tell you both, and particularly you, General 
Shelton, I respect every man and woman in uniform in America. 
And I have had a voting record that has been sterling for the 
military. I voted for things I do not understand and things I 
never saw and things I never will see because I thought the 
military wanted them and needed them. But I have to tell you 
that I have got some real concerns that our Commander in Chief 
is leading with his chin on some of these things, particularly 
on the things that are affected in our emergency supplemental.
    I can remember not too long ago we were told we would be 
out of Bosnia in 6 months. I do not know how many millions of 
dollars that was ago, but it has been a considerable amount. 
And as I look at the history of that country, I know we have to 
have some involvement, but I think there has only been two 
times they have been at peace in the last 400 years, once was 
under Tito and once under Hitler. And I am convinced that the 
end of their strife is not yet in sight. Even if we think it is 
settled and we come home, it is going to start again.
    And the same might be said of Iraq, as long as Saddam 
Hussein is in office. My view of this latest escalation in Iraq 
was that we just fought the second gulf war and we lost without 
firing a shot. I read the reports and saw what Saddam Hussein 
has done, declaring a national holiday. He said that he has 
broken the U.S. domination of the U.N. inspections commission. 
And then I see the things that have been put in place, like an 
oversight group that will watch over UNSCOM's inspection of 
these locations.
    I asked Madeleine Albright the other day if that 
politically appointed team would have the authority to overrule 
UNSCOM, and she said no. But that is not what Saddam Hussein 
has said and thinks. So we clearly do not have an agreement in 
place. And as I understand from reading the newspapers, the 
Secretary-General of the United Nations thinks that they are 
supposed to be a negotiating group between UNSCOM and Saddam 
Hussein.
    But, clearly, we spend a lot of money--something like $3 
billion, I understand, building up the forces in Iraq. And from 
my perspective, we have accomplished a few things. We have 
increased his statute in the Arab countries. There is no 
question he is trying to be the new Nasser, as far as I am 
concerned. We have decreased our own. We have had very little 
cooperation. At least, I understand what you have said, Mr. 
Secretary. And I suppose some of the leaders are telling you 
that privately.
    But I know they are being driven from the right not to get 
too close to America or our agenda over there. The wolf is not 
at their door right now. And so it is clear that we did not do 
our homework beforehand to make sure that we kept that 
coalition together before we had that buildup.
    But, in addition to that, by lifting part of that embargo, 
he is going to be able to sell something like three-fourths of 
the amount of oil that he sold before the embargo. Which, I 
mean, any fool ought to know that that buys unlimited weaponry. 
If you think he is going to feed his kids with that money, I 
think you are mistaken. He is not going to do it. Kids are 
still going to starve. He is going to feed his military and buy 
more weapons.
    I am convinced that we are going to face the same thing we 
did 7 years ago. Sooner or later, we are going to face the same 
thing. And the cost of it, I understand, is about $300 million 
a month to keep our forces over there. How long can we afford 
that? Time is on his side. All he has to do is sit it out. If 
he sits out of it a while, sooner or later we simply will not 
be able to afford it and we will bring our forces home. When we 
bring our them home, he steps forward again. That has been the 
history of Saddam Hussein. And sooner or later, the American 
taxpayer is going to rebel at that, at least in my view.
    Now, I tell you, I do not know the answer to all of that. 
But it just seems to me that we should have done a lot more 
work in the international public relations arena that seems to 
be a component part of any military venture now. I do not like 
it that way. We have got so darn much political involvement in 
our military operations now, it makes it difficult for the 
military to win any battles. But that is the way it is.
    I would like, Mr. Chairman, myself--it probably cannot be 
done, but I would like to take some of this money, if we are 
spending $300 million a month over there, take about $100 
million of it and write into this bill that we put a reward on 
Saddam Hussein, or a bounty or something. It would be cheaper 
in the long run.
    We put money up to bring Manuel Noriega to justice. And I 
do not know why we cannot with him. There is no question in 
anybody's mind the guy is a killer, a tyrant. He kills his own 
people. Out West, there are five members on this committee--I 
was just looking at them--Senator Domenici, Senator Burns, and 
some of us that come from out West, where we used to put 
bounties on uncontrollable killers. We did not get them all, 
but we sure got many of them.
    And it seems to me that if we want to have the most 
efficient use of our money, we ought to put some of the dough 
just to bringing him to justice, instead of just keeping that 
buildup in the military.
    Chairman Stevens. Senator, I am sorry to tell you, your 
time has expired.
    Senator Campbell. My time is up. Well, I want to thank you 
very much for indulging me, Mr. Chairman.
    And, General Shelton and Mr. Secretary, too.
    Chairman Stevens. Senator Specter.
    Senator Specter. Thank you very much, Mr. Chairman.
    Mr. Secretary, I have two questions. There is not much time 
and a lot to talk about. First, I congratulate you on the job 
that you have done. There is a lot of confidence from the 
Senate, because we know you so well and we have confidence in 
your being in that key position.
    The first question I have relates to the trial of Saddam 
Hussein as a war criminal. I introduced a resolution to do that 
on March 5, 1991, right after the end of the gulf war, in line 
with the work which Senator Dodd and Congressman Leach and many 
of us have done to try to establish an international criminal 
court.
    And 1 week ago Monday, I renewed that application, and the 
majority leader, Senator Trent Lott, has listed it for argument 
on Monday. And I think we will pass it.
    And my question to you is, to what extent, if at all, will 
that be helpful to the United States in giving us the high 
moral ground if we indict him and try him perhaps in absentia 
in perhaps taking some action as to Iraq or covert action or 
any other kind of action which may come into play?
    The second question that I have, Mr. Secretary, is our 
relations with Saudi Arabia. I personally am very, very, very 
dissatisfied with their response to very important U.S. needs. 
We lost 19 airmen and so many injured at Khobar Towers in June 
1996. Saudi Arabia now has in custody people who are charged 
with that offense. The FBI is not permitted to question them. 
The same thing happened after a Riyadh car bombing, where 
Americans were killed in November 1995. The FBI was not 
permitted to question those suspects.
    They were executed on May 31, 1996, and less than 1 month 
later, Khobar Towers blew up. We have 5,000 personnel in Tent 
City. I know you know it very well. I visited there recently. 
About 2 weeks after, I visited the Allenwood Federal Prison, 
which is a palace compared to the facilities for our 5,000 
people in Tent City. And there is religious persecution. People 
cannot practice their religions freely in Saudi Arabia, not 
only American citizens but others. Even the people who are at 
the bases.
    And my question there is, how much do we need Saudi oil? 
How important are they to us? Or is it possible to structure a 
foreign policy, a defense policy, that says to the Saudis very 
bluntly and very fairly, if you do not give us fair 
cooperation, we are not going to protect you?

                   International war crimes tribunal

    Secretary Cohen. Thank you very much, Senator Specter.
    First of all, as to the first question, your bill to create 
an international criminal court. And you said, what happens if 
we indict? And I was going to have a question, who is the 
``we''? Is the United States going to be the indicting----
    Senator Specter. No; it would be the war crimes tribunals, 
the specification of the resolution. It has been established, 
since 1991, of course. And they are trying people from the 
former Yugoslavia and Rwanda.
    Secretary Cohen. But I believe a court would have to be 
created. And that would take, I assume, other parties other 
than ourself.
    Senator Specter. Correct. It would take a United Nations 
resolution, just as the war crimes tribunals for the former 
Yugoslavia and Rwanda.
    Secretary Cohen. That was the point I was trying to make. 
This is not something that we can do on our own, to create an 
international war crimes tribunal. This is something that will 
have to be done through the international community. So the 
question would then be, what support would we have at this 
point?
    I am only speculating right now, but I would assume, until 
such time as we see how this most recent memorandum of 
understanding unfolds, and whether there is going to be full 
compliance or whether or not it is going to be another example 
of cheat and retreat on the part of Saddam Hussein, that there 
is unlikely to be that broad support for the creation of it. 
But I could be wrong.
    If, in fact, you have an international community that says 
yes, we would like to create a tribunal, and yes, we would like 
to indict him, then obviously that would be a very strong 
signal to Saddam Hussein. But I think that until such time as 
we see, in the next few months, how this is going to play out, 
then I suspect that we will not have that kind of support for 
it.
    Senator Specter. If we could indict him and try him, 
perhaps in absentia, the indictment or conviction, how much 
would that strengthen our hand against Saddam Hussein?
    Secretary Cohen. Well, I think if the international 
community were to do that, it would certainly degrade the image 
that Saddam Hussein currently has, as far as being any kind of 
a champion of the Arab people. You would have the international 
community condemning his actions and seeking to bring him to 
justice.
    Very quickly, on Saudi Arabia. They still remain the 
dominant player in the Arab community, as far as oil policy and 
other policies are concerned. I believe that the FBI has been 
working with them. I have not talked to the Director recently, 
but he has been working very closely with the Saudi 
authorities.
    Senator Specter. Mr. Secretary, the FBI is very 
dissatisfied with the cooperation, especially their refusal to 
let us talk to the suspects.
    Secretary Cohen. Well, I have talked with the Director. And 
the last time I talked to him, he did not express that interest 
to me. I knew that he was frustrated, but that he had been 
making some progress on it.

                       Politics among gulf states

    Let me just make one other comment, because I want to pick 
up on something that Senator Campbell said. And that has to do 
with the politics that are taking place in the region itself.
    I think it was Speaker O'Neill who said that all politics 
is local. We all understand that. Back in 1991, when it came 
time to deciding whether we would go, in fact, to war with 
Saddam Hussein, to liberate Kuwait, there was a lot of domestic 
politics at work here, because the American people were 
divided. Even though Saddam Hussein was burning and looting and 
raping and pillaging, there was great doubt in this body and 
the other body as to whether or not any action should be taken 
to evict him.
    The Arab communications have problems as well. They have 
local politics to deal with. And I must tell you that part of 
the reason that the coalition is no longer as strong as it once 
was is they do not believe that we have been pushing hard 
enough on the Middle East peace process. And they believe that 
we have a double standard.
    And that is something that the Saudis, the Kuwaitis, the 
Omanis, and everybody else in the region have to deal with. 
Their local population does not believe that we have been 
either evenhanded or fair-handed or have been pushing hard 
enough to get a Middle East peace settlement, and think that we 
are eager to punish Arabs but not eager to punish Israelis. So 
that makes it more complicated. I am not saying it is right, 
but those are the domestic politics that they have to live 
with.
    And that is one of the reasons why you have not seen the 
kind of solidarity that we had before. It is much harder when 
the case is the threat of weapons of mass destruction versus 
Saddam Hussein setting off 600 oil wells in the fields of 
Kuwait, and seeing that kind of a threat, which is real and 
tangible as opposed to one which might take place some time in 
the future, as far as the use of these chemicals and 
biologicals.
    I am just saying it is more complicated. We have the 
support of the gulf states. They want us to pursue diplomacy if 
at all possible. But I believe I can represent to you that if 
it comes time for a military option, we will have the support 
of everyone concerned.
    Chairman Stevens. Thank you very much.
    Senator Hollings.
    Senator Hollings. Thank you, Mr. Chairman.
    Mr. Secretary, General Shelton, I will support your 
request, because I understand that you two distinguished 
gentlemen are doing the best you can with the policy. However, 
we in the Congress and you in the administration, like my 
grandchildren say, have got to get real, get a life. We have an 
unenforceable Iraq policy. Put that down. Write it down. Mark 
it down.
    We walked away from a ceasefire back in 1991. The premise 
was that, well, we needed Saddam, some thought, as a balance 
against Iran. Otherwise, the Kurds were going to drive him out. 
But then we let Saddam have gunships, which he used to dominate 
the Kurds. Now, that still leaves us with a flawed, 
unenforceable policy.
    I wish you could have been with the FBI Director when he 
told me of the 100 cases of anthrax that we had in this 
peaceful United States; 90 of them were spurious, but 10 of 
them were serious. Now you get in Iraq and you puff, and you 
blow, and you puff and you blow, and then you strike for 5 
days. You knock out delivery systems and you knock out palaces. 
Then Saddam appears like the Secretary, with a little bag on 
TV, but his bag is not a 5-pound bag of sugar. He says, ha-ha, 
I am still here and I have anthrax.
    The policy has got to be, as we employed with the Soviets, 
mutually assured destruction. That is exactly what Israel told 
Iraq this time. They said, no, no, we are not going to hold 
back. You let one Scud come into downtown Tel Aviv, and that 
will be the end of Baghdad, and you. Then, Saddam appeared 
immediately on TV and said, wait a minute, we are not going to 
fire at Israel this time.
    So we must keep enough force out there for mutually assured 
destruction. Let him pile up all the anthrax he wants in every 
one of the palaces. It will help us as we will not have to use 
as many bombs. Just one hit will get rid of the whole area.
    But, in any event, it is not only a flawed policy, it is a 
destructive policy. That is what really bothers me. The 
distinguished colleague from West Virginia wonders why the 
members of our former coalition do not pay us. It is not their 
policy. In 1991 France, Russia, China, Syria, Turkey, Egypt, 
Saudi Arabia, Kuwait, and Bahrain, were all our allies. This 
time, all oppose a military strike.
    You can tell us, well, they tell you quietly one way and 
quietly another way. We do not play that game with our 
military. Their lives are on the line. We cannot play the 
political game.
    And that is the trouble. We have learned how to lose. Our 
military is trained how to win. We lost in Korea and Vietnam 
and Somalia. I do not want them to go back in and lose again, 
in the gulf. If they have got a chance to win, commit them. If 
they do not have a chance to win, then quit misusing them.
    There is no question it is a destructive policy. Not just 
flawed. Those heads of countries, emirs or shahs or what have 
you, would end up with all of their people arising against them 
if they back our current policy. That is what Saudi Arabia is 
worried about. Well, we have our planes and equipment there, 
but we cannot fly off the airfields. That is a stupid policy. 
We have got to get real and understand the reality.
    Unless we are going after Saddam, the real target, with all 
our resources, calling on Israeli intelligence if necessary, 
and are willing to support any opposition he has, we will not 
succeed. The mission is not to just kill a lot of people on 
both sides, and puff and blow, and use the military to make us 
and the Government up here in Washington look good.
    That is exactly what we do with the Social Security 
surplus, to make like we are balancing budgets. Now we are 
running around, using the military to make like we have a good, 
valid foreign policy. It is a flawed policy, a destructive 
policy. We are losing out in the Middle East. All of those 
countries were our friends in 1991. They are against us now. We 
pay Egypt $5 billion a year, or whatever it is, and then they 
say no, they oppose us. We ought to find out whether the policy 
is sound or otherwise.
    With respect, quickly then, to Bosnia, Mr. Secretary, I use 
the same test you use. You said that the troops feel good about 
their mission. Yes; on what they are doing they are doing an 
outstanding job. But last July, I went to the region with the 
majority leader and others. We met with the three leaders, 
Serbian, Croatian, and Moslem. Senator Hagel turned and said, 
what are you going to do about the war criminals?
    Oh, boy, that Serb president sat up. He said, now, Mr. 
Senator, no one is a war criminal until they are tried and 
proved guilty of war crimes. What you allege the offenses are 
of our leader, you can allege against the Moslem leader, and he 
points. In other words, I was sitting with a war criminal. When 
I saw that, I said, we have another Ireland. The British have 
been there for 30 years occupying that country.
    But, thank you, Mr. Chairman. I think they get the pitch.
    Chairman Stevens. I thank you very much, Senator Hollings.
    Secretary Cohen. May we have a chance to respond? Well, I 
will wait.
    Chairman Stevens. You can.
    Secretary Cohen. I will wait.
    Chairman Stevens. Yes, later.
    Senator Burns.
    Senator Burns. I would like for you to respond now.
    Chairman Stevens. This is not a democracy. You have 5 
minutes. [Laughter.]
    Senator Burns. Thank you.
    Mr. Secretary and General, thank you.
    I have one question and I want to follow on the heels of 
the statement of my friend from West Virginia. I think it 
should be made very clear here that whenever we start moving 
money around and taking it away from modernization, O&M, and 
training to further a policy, that is a decision that has been 
made by the administration and not by this Congress and not by 
this committee and not by this Senator. There is a message 
here. And I do not want to sacrifice the readiness of any of 
the services and our ability to protect ourselves and react to 
something that is really in the interest of national security.
    That is a decision that is being made by this 
administration and not by this Senator or, I think, this 
committee.

                       Hardening bases in Bosnia

    General Shelton, I notice in this supplemental that there 
has been--I think the figure is--around $42 million or $47 
million to harden the bases in Bosnia. Is that correct?
    General Shelton. Senator, to the best of my knowledge, that 
is an approximate amount. I do not have the exact figure.
    Senator Burns. OK. I do not know whether it is $42 million 
or $47 million. Can you tell me what we mean by hardening the 
bases, that term?
    General Shelton. That is to continue to improve on the 
positions in terms of being able to protect the troops that are 
located inside the base itself, which will allow us to use more 
of the troops to carry out the missions the SFOR commander has, 
rather than standing guard and things of this type. That will 
allow him to have more troops at his disposal, rather than 
being contained to one specific point.
    Senator Burns. Well, to me, this takes on an appearance of 
permanency. And I think that is what sort of gets the attention 
and our concerns here in Congress.
    General Shelton. Senator, any time that we stay in a place 
for 1 day or 1 year or 2 years, the idea is to continue to 
improve the force protection, to improve the quality of life of 
the troops that have to live there, et cetera. And that is all 
part of the continuation, not designed to build permanent 
installations.
    Senator Burns. Thank you, Mr. Chairman. That is all that I 
have. I just wanted to make that point, that I do not want to 
sacrifice the readiness and the skills and the operation and 
maintenance of the main force of this country to further what 
some would think is a flawed policy.
    Thank you very much, Mr. Chairman.
    Chairman Stevens. Do you want to use the balance of this 
time now, Mr. Secretary, to answer Senator Hollings?
    Secretary Cohen. I will wait, Mr. Chairman. I know you have 
a vote coming up at 11 o'clock.
    Chairman Stevens. Thank you very much.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    It is nice to be with you, Secretary Cohen. We have missed 
connecting on the phone three or four times. And to the extent 
that part of that is my problem, I apologize.
    General, it is wonderful to be with you. And I am glad we 
had an opportunity to sit at some of the meetings that preceded 
this.
    I tried for this morning's meeting, Senator Byrd, to see if 
I could recap how much money we have spent in Bosnia and thus 
far in Iraq. And I will recap it for you quickly. I will tell 
you my dollar number for this is $16.1 billion. And it comes 
about in the following way.
    The total Department of Defense costs for Bosnia since the 
initial United States deployment in 1995 up to June 1998 has 
been $6.4 billion. In addition, under function 150, which has 
to do with foreign affairs, nation-building so as to speak, we 
have spent $1.3 billion. The grand total for Bosnia to the end 
of 1999, therefore, is $10.1 billion.
    Chairman Stevens. 1998 or 1999?
    Senator Domenici. We are now assuming that their 1999 
budget is paid for. And so I am telling you, based on their 
budget submitted, what they want, we will have spent, by the 
1999 appropriation bill, $10.1 billion, according to the GAO. 
And I believe that is a correct number.
    Now, for Iraq, since the end of the war in February 1991--
and that is a long ways back; that is not the current crisis 
alone--but the total cost to the United States up to 1998 for 
deployments to the U.N. peacekeeping in the Persian Gulf amount 
to $3.9 billion. That is according to the Congressional 
Research Service's most current estimate.
    With the supplemental that we are being asked to do, that 
you have requested, and I think properly, that we wait on, for 
1999, it will be $5.3 billion, over and above the ordinary 
costs of our military. So you add them up--and I had left out 
actually, so I will correct it--I had left out $700 million for 
1997 in Iraq--so I will tell you the sum total is $16.1 billion 
for both of those operations of the United States Government 
that would not have normally been in a defense budget. And I 
can take that $1.3 billion out if you would like, for nation-
building, because that is not in the Defense budget.
    But that is a rather large amount of money that we would 
have not have spent. And I tell you, I am not sure that any of 
us understand the consequences of spending that and not having 
been appropriately budgeted for it in the ordinary budgets. And 
that leads to some very, very interesting ramifications with 
reference to preparedness. And I am not a preparedness expert, 
but I am beginning to understand that you just cannot take 
money out of preparedness and say, we are just taking it out 
for 6 months and then we will put it back. You cannot do that 
without having a very consequential negative effect on 
preparedness.
    Chairman Stevens. Do you want to yield just a second?
    Senator Domenici. Sure.
    Chairman Stevens. You are talking about 10 destroyers and 
48 C-17's that we did not build.
    Senator Domenici. All right.
    Now, what I would like to submit to them, and I would ask 
that they give us this before we vote on the 1998 supplemental, 
I would like to know how many training operations or joint 
exercises will have been canceled in the military service 
because of not having the money that we thought we would have. 
I would like to know the impact on lower mission capable rates 
for the Air Force and the Navy aircraft that is lowering their 
mission capability, lowering pilot retention, lowering mechanic 
retention, lowering mounted infantry retention, lowering spare 
part stocks, and raising cannibalization rates.
    And I think they might be able to supply us with that, Mr. 
Chairman, in short order. And I will submit the list to both of 
you as I read them.
    [The information follows:]

    Impact on training operations.--As one would expect, the impact on 
training operations and Joint exercises of not receiving a supplemental 
varies by service. The Army would be forced to absorb a large shortfall 
in the current O&M account and would be forced to cancel most training 
and maintenance starting in June. We would expect to see Army readiness 
begin to decline, with the potential of Army Divisions reporting C-3 by 
end of fiscal year. The Army does not consider the absorption of the 
contingency shortfall as a viable option.
    The Air Force will have to cease all peacetime flying training in 
the 4th quarter of fiscal year in order to able to support ongoing 
operations such as Southern/Northern Watch, Bosnia, and Counterdrug 
operations. We could expect to see the combat flying squadrons not 
involved in these operations to report C-4 readiness by the end of the 
fiscal year. Furthermore, all pilot training will cease.
    The Maritime Services do not plan to cancel any scheduled training 
operations or Joint Exercises. The Navy would offset the costs to 
sustain deployed force readiness by requesting money intended for 4th 
quarter ship depot and real property maintenance activities. If 
supplemental funding was not available, we would expect these actions 
to begin by the end of 3d quarter to preclude degradation to readiness. 
The Marine Corps expects offsets to come from deferred maintenance and 
reductions in family housing.
    The relationship between current contingency operations and: Lower 
mission capable rates for Air Force and Navy Aircraft; lower spare 
parts stocks; higher ``cannibalization'' rates?; lower pilot retention; 
lower mechanic retention; and lower mounted infantry retention.
    Contingency operations can be thought of effecting both people and 
equipment. The impacts of these operations on people can be 
problematic. For example, certain military units and specialists have 
had a pronounced increase in the number of deployments away from their 
home station. This increased personnel tempo, or PERSTEMPO, has been a 
cause of concern, affecting quality of life and, possibly the retention 
of our military personnel.
    In terms of retention, the results appear mixed. The Air Force 
``exit surveys'' of pilots and aircraft mechanics leaving the force 
often cite PERSTEMPO as one reason for their decision. On the other 
hand, Army re-enlistments for units deployed to Bosnia are better than 
the Army average. The Department is concerned with any negative effect 
and has taken considerable steps to mitigate any negative impact of 
increased PERSTEMPO.
    To that end, we are carefully managing those units, platforms, or 
occupational specialties that are in the most demand for deployment via 
our Global Military Force Policy (GMFP). This system monitors the 
capacity constraints, and when these constraints are exceeded, 
priorities are established and conflicting demands resolved. To reduce 
deployment workload, we cut the number of man hours associated with 
Joint Exercises by 15 percent and encouraged Commanders at all levels 
to reduce tempo burdens where possible. Finally, we have asked the 
Services to establish PERSTEMPO metrics to monitor the levels of 
employment and report these trends to Senior Readiness Oversight 
Council. This allows us to measure over time the changes in the demand 
for specific units and platforms.
    In terms of equipment, the major impact of contingency operations 
occurs if they displace funding for maintenance, spare parts, and 
related items. For this reason, we urge Congress to approve passage of 
the emergency supplemental without offsets. We have outlined below some 
of the potential implications to readiness if DOD is directed to offset 
the costs of the supplemental.
                    potential readiness implications
Army
    Eliminating collective training above the platoon level, including 
canceling Combat Training Center rotations and Joint Exercises (would 
decrease Army Division Training ratings to T-3).
    Lowering equipment maintenance readiness standards and deferring 
depot maintenance.
    Deferring facility/real property maintenance.
    Drawing-down spare parts stock (without replacement).
Air Force
    Combat flying squadrons not engaged in ongoing operations will be 
C-4 by end of fiscal year.
    Aircraft mission capability rates will decline 2 to 3 percent by 
end of fiscal year.
    Limited parts inventories will be further-depleted which could lead 
to higher cannibalization rates.
    Combat flying squadrons not engaged in ongoing operations will be 
C-4 by end of fiscal year.
    Pilot training will cease, further aggravating pilot shortage, with 
limited ability to make up shortfalls due to capacity limitations.
    Recovery from unfunded contingency costs could take 2 to 3 years 
and require increased O&M funding.
Navy
    Delay Maintenance ``availabilities'' on approximately 22 ships.
    Reduce spare parts funding for non-deployed units. Fleets would 
defer stock replenishment until sufficient funds available. Would 
reduce non-deployed aircraft MC/FMC rates 5 to 10 percent.
    Restructure/stretch modernization programs placing QDR force 
structure levels at risk.
Marines
    Defer 1st through 4th echelon maintenance.
    Defer MRP; repair only critical damage.
    Adjust O&M accounts between MARFOR's to offset/balance.
    Reductions in family housing and MilCon accounts.

    Senator Domenici. I am not here to talk as if I have a 
course of conduct for the United States in the Middle East or 
in Bosnia that is different from what is going on. But I will 
say that I frankly think, in both instances, both with 
reference to Iraq in the last few years and with reference to 
Bosnia, that it has been pretty difficult for the United States 
Congress to be a real partner and a player. Because the 
President of the United States has not performed in a 
forthright manner with reference to the Congress.
    I mean, he knew when he told us we were going to be there 
for a given period of time that that was not going to be the 
case. I do not think there is any question about that. And yet 
he took it to the American people, he campaigned on it and all 
kinds of things. And it gets kind of tiresome up here when that 
happens over and over again.
    In Iraq, we have been touting our offensive capabilities 
and what we are going to do as a great superpower for far too 
long. My own opinion is that the President of the United States 
threatened too long and too many times, and the credibility of 
that threat has diminished greatly.
    I yield back. I am sorry I took over my time. Thank you, 
Mr. Chairman.
    Chairman Stevens. Senator Inouye.
    Senator Inouye. Thank you very much.
    May I request that my opening statement be made part of the 
record.
    Chairman Stevens. Yes; that will be done for any Senator 
who wishes to submit their opening statement.
    [The statements follow:]
             Prepared statement of Senator Daniel K. Inouye
    Mr. Chairman I want to begin by commending you for holding this 
hearing today. On Wednesday of this week, the President submitted his 
request for supplemental appropriations for the Defense Department. 
That request of $2.02 billion is critical to ensure that military 
readiness and support for our military families are not curtailed to 
pay for the costs of responding to the threats in the Middle East or 
for extending our presence to preserve peace in Bosnia.
    In the past, Congress has often required DOD to absorb the costs of 
unanticipated contingencies to keep the deficit in check. As defense 
spending has been reduced over the years, DOD's ability to absorb such 
costs has diminished. Were we to require that today, we might break the 
force.
    I commend Secretary Cohen and our military leaders, most notably, 
General Shelton, for prevailing upon the administration and insisting 
that this request be on top of your existing funding.
    In recent months, there have been numerous reports bubbling up from 
the field that readiness is teetering on the edge. Spare parts 
shortages, inability to meet operating goals in flying, steaming, and 
other training, all of these show that DOD cannot be forced to absorb 
large costs for unexpected operations in both Southern Europe and the 
Middle East.
    Our military leaders are well aware of the current situation and 
fully support the addition of funding to sustain these operations.
    It is my belief that we must respect their military judgment and 
approve these emergency requests.
    Some of my colleagues and many in the audience may not be aware 
that this emergency procedure was agreed to in the Balanced Budget Act 
of 1990 to ensure that ongoing Government programs were not sacrificed 
to pay for emergencies. And, that it was our colleague Senator Byrd who 
helped lead the fight to ensure that this type of authority was 
enacted. I for one can think of no better reason to use this emergency 
designation than to allow for the protection of military readiness and 
the preservation of the quality of life for our military families.
    Mr. Chairman, again I thank you for calling this hearing, and I 
look forward to the statements and responses of our witnesses.
                                 ______
                                 
              Prepared Statement of Senator Barbara Boxer
    Mr. Chairman, thank you for holding this hearing on the Defense 
Department's fiscal year 1998 supplemental budget request. It is an 
honor to have the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff as our distinguished guests this morning.
    This supplemental aims to meet the emergency requirements of our 
build-up in the Persian Gulf, the extension of the military mission in 
Bosnia and natural disasters, including those associated with El Nino.
    I am very pleased that the Department of Defense has included 
$172.8 million for natural disasters--$50 million of which will go 
toward El Nino related disasters. I'm sure that everyone is aware that 
California has suffered tremendously due to this unusual weather 
phenomenon.
    I am also looking forward to the opportunity to hear from Secretary 
Cohen and General Shelton on the U.S. military role in both Bosnia and 
Iraq. The United States has major national interests in these regions 
of the world, and it is essential that U.S. policies promote stability 
and work toward a lasting peace.
    Thank you Mr. Chairman.
                                 ______
                                 
              Prepared Statement of Senator Larry E. Craig
    I thank the Chairman for holding this very important hearing 
regarding the Supplemental Appropriations request to support our 
current missions in Bosnia and the Gulf. I would also like to thank in 
advance our distinguished witnesses, Secretary of Defense Bill Cohen 
and Chairman of the Joint Chiefs, Hugh Shelton.
    As you might recall, I opposed the deployment of U.S. troops to 
Bosnia. I voted, along with twenty-one other Senators, to stop funding 
for the deployment of troops to the region. There is no question that 
the humanitarian situation in the area has been tragic. However, I 
opposed it because I had grave reservations about putting U.S. troops 
in harm's way without a clear goal or mission--not to mentioned 
legitimate questions about whether the mission was within U.S. national 
and security interests. Ironically, it appears as though we are asking 
those same questions today.
    The Administration continues to emphasize the need for benchmarks, 
rather than deadlines when considering prospects for U.S. troop 
withdrawal. However, there doesn't seem to be a quick-fix solution to 
the deep rooted problems plaguing that region, and security experts on 
both sides of this issue seem to believe that--like it or not--NATO is 
committed to the region for the long haul. In fact, a statement issued 
February 20th by NATO's ruling North Atlantic Council said, ``Rather 
than focusing on a specific end date, the aim is to achieve an end 
state of a secure environment adequate for the consolidation of the 
peace without further need for a NATO-led military force''. It is more 
disconcerting when an expert at the U.S. Defense University wrote that 
NATO's role in Bosnia ``is essentially permanent--20 years or more.'' 
Although I realize that many will refute that specific claim, I think 
we can all agree that this mission has lasted much longer than 
promised.
    We have spent nearly $8 billion in support of ``peacekeeping'' in 
Bosnia, well beyond the $2 billion originally estimated. While the 
discrepancy between the estimated amount and the actual cost speaks for 
itself, the related issue of the mission's impact on U.S. troop 
readiness must be examined. Since 1989, manpower has been cut by nearly 
one-third, yet the number of missions has quadrupled. I increasingly 
hear reports about a heavily burdened military system--planes lacking 
replacement parts, low morale, inability to retain pilots, and 
difficulties recruiting. I know that the distinguished Senator from 
Texas, Ms. Hutchison, has been raising this issue for sometime, and I 
share her concern that these problems could jeopardize our ability to 
defend our interests in other parts of the world.
    Now that we have stepped back from the brink of imminent conflict 
with Iraq, it is essential that this Administration takes a serious 
look at a long-term policy toward Iraq and Saddam Hussein. Since 
January 13th, we have amassed a huge force in the Gulf: twenty ships, 
including two aircraft carriers, along with 30,000 troops and more than 
160 combat aircraft. Because few believe the U.S. has permanently 
averted conflict with Hussein, much of this force may remain in the 
Gulf for some time. What concerns me is that if Hussein thwarts arms 
inspector efforts again, how will the U.S. respond, especially if we 
face the same luke warm response from our ``allies'' in the Gulf and 
other parts of the world next time?
    During the Gulf War, the United States mounted its multinational 
coalition to expel Iraq from Kuwait. We had military and logistical 
support from twenty-seven other nations, including the Arab League. 
This time, only Kuwait explicitly supported the use of force. On the 
other hand, the United Arab Emirates denounced the military build up. 
Saudi Arabia would not allow the U.S. to attack from Saudi soil or air 
space. France, Russia, and China stonewalled attempts to gain consensus 
from the Security Council and opposed military action. As Brent 
Scowcroft recently wrote, ``Going it alone may sound great in theory, 
but in the real world of large-scale, complex military operations, even 
superpowers need help.'' Although there is world wide consensus that 
Iraq must comply with all applicable U.N. resolutions, international 
attitudes differ sharply on how to force Iraq to comply with 
eliminating their weapons of mass destruction programs. President 
Clinton must consolidate support, in case Saddam Hussein tests U.S. 
resolve again.
    In sum, Mr. Chairman, I have deep reservations about our continued 
presence in Bosnia and am concerned that the Administration's call for 
``benchmarks'' as a precursor for U.S. withdrawal, is a justification 
to keep our men and women in uniform there indefinitely. I don't find 
that policy acceptable. In regards to Iraq, the Administration must 
forge a long-term policy to ameliorate the very dangerous threats 
resulting from Saddam Hussein. That policy can't come soon enough.
    Mr. Chairman, thank you again for holding this very important 
hearing. Secretary Cohen, and Chairman of the Joint Chiefs, Mr. 
Shelton, thank you.
                                 ______
                                 
             Prepared Statement of Senator Lauch Faircloth
    Mr. Chairman, I am troubled by this request. Once again, our 
President is asking us to pour more money and troops into the 
multinational effort to obtain peace in the former Yugoslavia. He asked 
us to support an implementation effort that he told us would be 
completed in 1996. Then, after he was re-elected, he told us that the 
troops would need to stay in Bosnia through June 1998. Now, as the 
second deadline is looming, the President again asks for more money, 
more troops, and more time. There is no end in sight and no exit 
strategy.
    Mr. Chairman, no decision is made in a vacuum. Other national 
defense priorities are being neglected as long as we stay in Bosnia. 
Our military infrastructure is crumbling, and our troops are working at 
an operational tempo that is literally driving them out of the service 
at an alarming rate. Meanwhile, the Bosnia spigot is open. If we are 
going to appropriate over two billion dollars, I know of many better 
uses for it than this operation.
    Regarding the Iraqi situation, we were nearly engaged in an 
operation there. Frankly, though, given the state of today's defense, I 
am not sure we could re-fight Desert Storm.
    Mr. Chairman, because the Bosnian effort lacks a clear objective, 
the only appropriation that we should approve for it is the amount 
needed to immediately wind it down and bring our troops home by the 
already once-extended deadline of June. As for Iraq, I will support 
spending for a properly planned response to violations of the 
inspection commitments that Iraq made after Desert Storm.

                    Fixed end date versus open-ended

    Senator Inouye. Mr. Secretary, General Shelton, the 
President's Bosnia certification letter to Congress states, and 
I quote: ``Although I do not propose a fixed end date for this 
presence, it is by no means open-ended.''
    From a military perspective, do you believe it is better to 
provide an end date for your operation or leave it unsaid?
    General Shelton. Senator, from my perspective, it is better 
to leave an open-end date on any operation. Because I think 
when you put an end date on it, you play right into the hands 
of those that are opposing whatever it is you are attempting to 
accomplish, whatever the mission is, be it a combat mission or 
a peacetime engagement mission.
    Senator Inouye. So it just does not make sense to have an 
end date at this time?
    General Shelton. From my perspective, from the military, it 
does not make sense to have an end date. It does make sense to 
have a strategy, to have a means by which you plan to carry out 
the task, to have some phases in that operation that you know 
internally but that you do not publish or have imposed on you 
as an end date, which then allows them to slow-roll you or to 
do things to kind of look like they are playing along, just to 
get you out of there and then it goes down again.
    If you want to really make progress, if you want to achieve 
the objectives, you are better off if it appears that you have 
got an open-ended manner in which to achieve it even though you 
may have internally imposed milestones and objectives at which 
time you would like to move the force out.
    Senator Inouye. Mr. Secretary, do you agree with that 
response?
    Secretary Cohen. I do.

                     Achieving milestones in Bosnia

    Senator Inouye. In the President's report, he cites great 
successes in just about every criteria. While the report claims 
much success in moving toward these goals, there is no 
timetable as to when they will be achieved. How does one define 
how to measure whether the achievement has been successful.
    Secretary Cohen. I think you have to look at the record 
itself. For example, one of the objectives is to have free 
elections in Bosnia. We are having free elections in Bosnia. 
One of the objectives is to start to get the resettlement of 
refugees. Refugees are starting to flow back into the region.
    Another objective is to prosecute the war criminals. There 
have been almost one-third of those who have been publicly 
indicted who are now before The Hague. So you can, in fact, 
point to a number of successes in the objectives and see what 
is taking place on the ground itself.
    There has been a change in momentum. We now have a new 
leader, for example, in the Republic of Srbska. And that leader 
is, in fact, pushing for changes in that country. And those are 
taking place. And sometimes you have to build up a momentum. 
And as you build that momentum, you see an acceleration of the 
kinds of things, of achievements. I think that is taking place 
now.
    Could it go the other way? The answer is yes. Senator Byrd 
talked about events taking place in that region today which 
could spread all over southeastern Europe.
    But right now, the trend is very positive. The trend lines 
are in our favor. We have had General Clark, who has been 
helpful in putting together a special unit, as such, that will 
serve as a buffer between the armed forces and the police 
forces which are being trained by the IPTF. So the trend lines 
are quite favorable. They could be reversed, but right now they 
are positive.
    Senator Inouye. If the trend line proceeds as you have 
described it, when do you think we will have a successful 
certification report?
    Secretary Cohen. I cannot tell you that. That is going to 
be up to the President to decide, in consultations with 
Congress. As I have indicated before, there can be no open-
ended commitment as long as Congress is the one that really 
controls the purse strings and says, we are not going to pay 
for this; we are going to say no more funds, period. Then, 
under those circumstances, it comes to an end, whether any 
administration likes it or not.

                          Ceasefire in Bosnia

    Senator Inouye. General Shelton, there is a ceasefire in 
effect at this moment. When would you consider this ceasefire 
to be permanent?
    General Shelton. Senator, that is a hard question to 
answer. In terms of certainly right now, it appears that the 
ceasefire has been holding for quite a period of time. I do not 
know what the technicalities are for when you say we have 
transitioned to a permanent ceasefire, from a legal standpoint.
    But I would also say that a part of that agreement, to add 
on to what Secretary Cohen said, is that every 6 months, we 
will review our accomplishments laid out in the milestones that 
we are attempting to achieve in Bosnia right now, reassess 
where we are, see if, in fact, we are getting to a point that 
we could even further reduce our force. And that is all part of 
the milestones that have been laid out for us to go with.

                     Pilot retention and readiness

    Senator Inouye. One of the concerns that we requested the 
administration to respond to was the matter of morale, 
effectiveness, and retention. And the report indicates that 
morale is high. And yet we have heard reports from chiefs, 
telling us that something is wrong. For example, pilots are 
leaving at unprecedented numbers. How do you explain this?
    Secretary Cohen. Well, I will defer to the chairman in a 
moment, but I wanted to come back to this point. Because there 
was something in Senator Domenici's request which I thought was 
necessary to require us to explain what the impact would have 
been had we had $16.1 billion for other items. But he 
mentioned, please show us what the impact would have been upon 
pilot retention.
    In factoring to that equation, you have to say, can we 
exclude hiring practices on the part of the private sector? 
Because that has been a major problem as far as how does the 
Air Force deal with a private commercial sector that is hiring 
them at rates that are unprecedented, at levels of compensation 
that cannot be matched by the military? And so there are a 
number of factors involved as far as pilots are concerned.
    There are also some readiness problems and retention 
problems with units that we call low-density/high demand. They 
have fewer of them, but they are in greater demand. There is a 
new management system that has been instituted by the chiefs. 
And they are now trying to have a better management control on 
those forces that are in high demand, that we track them, that 
we try to find alternatives to sending them on continuous 
rotations.
    So we do have a management problem which is now being 
addressed. But it is a very complicated issue, and it is not 
confined to just one area.
    Senator Inouye. Thank you very much.
    Chairman Stevens. Thank you.
    For the information of the Senators, I am informed there is 
just one vote now. We tried to have it postponed, but it will 
commence at 11 o'clock. The next Senator is Senator Cochran and 
then Senator Bumpers, and then Senators Dorgan and Leahy. I 
would suggest that those who could, go over and vote and then 
come back. We might be able to meet the requests of the 
witnesses who want to leave here right after 11:30.
    Senator Bumpers. Why don't we come back after the vote.
    Chairman Stevens. There was an objection, from your side as 
a matter of fact, to that, because someone is scheduled to 
leave at noon.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    On the subject at hand, the request that has been submitted 
by the administration is in two parts, as the witnesses have 
pointed out. And the first is the one that is really the 
subject of this hearing this morning. And that is the 
supplemental request, not the budget amendment for fiscal year 
1999. And that includes Bosnia and Southwest Asia, a total of 
about $1.8 billion.
    As I see it, the question before our committee is whether 
we are going to approve this request or try to modify it in 
some way, or to reflect concerns with the administration's 
policies by refusing to vote for it. I worry that those 
alternatives are really going to undermine the ability of the 
country to continue to maintain a military that can protect our 
national security interests in this very dangerous world that 
we find ourselves in right now. And that is the reality.
    And the reality is, if we do not approve this supplemental 
budget request as an emergency, as requested by the 
administration, we are going to hurt those who are in the 
military, who are obligated to continue to serve. Because we 
are going to reduce their training. We are going to cut back on 
the housing allowances that are available. We are going to 
threaten their quality of life, and exacerbate the pilot 
retention problems and the other difficulties that the military 
is facing right now, with a shortage of funds to do the things 
that are necessary to help attract career service from young 
men and women that we need today.
    This was brought home to us in the Subcommittee on Defense 
appropriations, when we reviewed the budget request for the Air 
Force for the next fiscal year. Even though we have the pilot 
retention problem, and some of that has to do with the quality 
of life--it is not all just money--housing requests are down 
for this next fiscal year compared to the current year, other 
military construction accounts that have to do with quality of 
life are down. The request is down.
    We have got to do something about the management of this 
whole situation. We have got to control those things that we 
can control. Maybe we cannot control the level of pay for 
pilots, although the chairman made a very persuasive argument 
in our hearing on the Air Force budget that we need to look at 
that, and maybe increase the pay for pilots. We need to think 
about that--a way to do it. We already have a bonus system now, 
but we need to explore other options.
    So the point I am trying to make is, what is the impact of 
a decision by this committee to reject, if we reject the 
President's proposal, if we do not go along with it? I do not 
think we have any choice. And we can debate the policy. We can 
talk about Saddam Hussein. We can talk about the Bosnia war 
criminal situation and all that. And all of those are very 
important issues. But we are not going to settle them on this 
supplemental appropriations bill.
    What we would do, if we do not approve the President's 
request, is undermine the capacity of this country to continue 
to defend itself, because we are going to weaken the military 
if we do not. Because these funds are going to be spent, and 
they will have to come out of other accounts that are already 
down in the projected budget for next year--already down. Under 
the President's budget request, he is requesting less for 
housing, less for military construction; less for the Guard and 
Reserve, which are being called upon now to train more, to be 
ready to deploy more, spending more time overseas, away from 
their homes. You have got people now rethinking their 
obligations who are in the Guard and Reserve because of these 
very same problems.
    So this administration has been tough on the military. They 
can continue to cut the programs that would help retain and 
attract high-quality service for our military, and then expect 
that it is all going to get better just by itself. And they are 
making it worse.
    I am not talking about the two witnesses here, but the 
policymakers at the White House are making this problem worse, 
I think. We are left with a situation where I think we have to 
support the budget request, and that is the way I am going to 
vote. I hope a majority of this committee will do so, and that 
the Senate will. And we will try to work our way through the 
conference with the House and get this money into the hands of 
the Department of Defense so you can do what you need to do to 
deal with these problems in Southwest Asia and in Bosnia, 
fulfill our responsibilities that the President has undertaken, 
whether they are right or wrong, so we will not hurt the 
military in the future and jeopardize the security of the 
country in the process.
    A strong letter follows, I guess.
    What is your reaction to that?
    Oh, Senator Dorgan, you are here.
    Chairman Stevens. Well, you have still got a couple of 
minutes.
    Senator Cochran. I am sorry, Mr. Chairman, I thought you 
had gone to vote.
    Chairman Stevens. What is your reaction?

                Damage from failure to pass supplemental

    Secretary Cohen. I agree with Senator Cochran that a 
failure to pass this supplemental will result in something that 
I would describe as calamitous, in terms of its impact upon the 
military. The chairman has outlined it in his oral 
presentation, I have it in my written presentation, what the 
consequences would be for a failure to have these additional 
funds.
    It would impact upon certainly housing. It would impact 
upon depot repair work. It would impact upon hiring and 
recruitment. It would have a reduction in training. And that 
means a reduction in readiness. It would have very serious 
consequences to the military were we not to get the 
supplemental. So I agree with you that we need it.
    Chairman Stevens. Senator Dorgan.
    Senator Dorgan. Thank you, Mr. Chairman.
    I will be brief. You both have tough jobs. And this 
morning's hearing reflects, once again, that there is a great 
deal of impatience and concern about some of these issues. I 
think Senator Cochran and Senator Domenici, and I think Senator 
Stevens, alluded to this issue. They have raised important 
questions. And I guess I would like to hear a response.
    What about readiness? What about the issue of taking for 
the purpose of these missions, weakening the structure? I mean, 
I think you will want to respond to that and should respond to 
that. Let me say I agree with them that we will, I am sure, 
approve this supplemental request.
    And, finally, before you respond to the questions of 
readiness and strength, let me also say that Senator Specter 
talked of a resolution which I am a cosponsor of, calling for 
the formation of an international tribunal on Iraq. I noticed 
in a newspaper recently, I think in the last week, a suggestion 
that Saddam Hussein be considered for the Nobel Peace Prize. 
That suggestion would not be made of a convicted war criminal. 
He should have probably been convicted of war crimes 6 years 
ago. Certainly we ought to ask the United Nations to convene an 
international tribunal, present the world with the evidence, 
indict, and try--in absentia if necessary.
    I think that is an important recommendation and I hope the 
administration will consider that and discuss it. We certainly 
will be doing that in Congress with the resolution Senator 
Specter has offered.
    Now, I wonder if you might respond to the question of, does 
this money, which I think we will approve, does it lead to 
questions about taking money from readiness and other accounts 
that inevitably weaken our military?

                        Balanced budget pressure

    Secretary Cohen. If we do not have the funding, it will 
certainly have an impact on readiness. And that is a given.
    I would like to make just a quick response to Senator 
Cochran's comments and your own. We also live in a balanced 
budget environment. This body, along with the other, has gone 
along with passing a balanced budget amendment, which does, in 
fact, present some unique challenges for the future, in terms 
of the allocation of defense versus domestic spending. This 
year you have walls that have been set up between defense and 
nondefense matters. Next year the wall comes down.
    It will be interesting to me to see whether there can be 
support for a greater allocation of resources coming from the 
domestic programs going into defense, or whether the reverse 
will be true. But, nonetheless, we had to at least try to 
anticipate what the level of funding would be for the 
foreseeable future.
    I assumed, in a balanced budget environment, we were going 
to plan on having roughly the same amount, plus inflation, for 
the foreseeable future. Given those parameters, how do we 
allocate money for readiness versus modernization and 
investment?

                        Balancing defense needs

    As you look at the QDR, we tried to come up with a 
responsible balance. Sometimes we have to cut back on readiness 
in order to achieve the kind of savings that would be necessary 
to put into investment. We have to achieve overhead reductions. 
We have not been successful in persuading the Congress yet that 
we have got too much overhead and too much infrastructure to 
support the forces structure. But those are the kinds of things 
that we are faced with.
    The chairman can give you a recitation in terms of what the 
impact has been on readiness. We have got some shortfalls. We 
are now trying to address them. But there never will be a point 
in our history where we can say everything is in perfect 
balance, we have got the money necessary to pay for 
compensation, we have got the money necessary for full 
readiness across the board, plus we have what we need for 
investment. It is always a balance. Sometimes we will be higher 
on investment, sometimes higher on readiness. But it is a 
management problem that we are trying to deal with.
    I do not want to take the chairman's time, but he can tell 
you how we are proposing to deal with the readiness issues 
which have surfaced in recent months.
    Senator Domenici. Is this weakening the military, this 
diversion of money?
    General Shelton. Senator Dorgan, let me address that if I 
could. And I underscore everything that the Secretary said. But 
when we went into the QDR, one of the things that each of the 
service chiefs did in the process of trying to see how he could 
continue to manage within the balanced budget amendment and, at 
the same time, we were drawing down the force, there was an 
understanding that we would, first of all, take advantage of a 
revolution in business affairs to gain greater efficiencies, 
that we would be able to get rid of some of the excess 
capacities that we have, and that we would have to take a 
greater risk in the area of readiness. All of that had to be 
very carefully balanced in the process.
    We started down that particular road, and are able to 
balance those things right now. In the out-years, if we are not 
able to achieve the savings through efficiencies or through 
eliminating excess capacities, then we have got some problems 
on the horizon as we try to continue to modernize. And that is 
critical for modernization.
    By basically having the modernization accounts fenced and 
trying not to have to cut into those in order to shore up the 
readiness accounts, by having these unforeseen requirements 
that we are asking this nonoffset supplemental for, it means 
that you have no place to go, really, except into your 
discretionary funds. And as an example, this particular 
supplemental that we are asking for would take out about 80 
percent of the Army's discretionary funds in the fourth 
quarter.

                      Possible damage to readiness

    I can give you some specific examples of direct impacts on 
readiness in order to move forward, or not to get the 
supplemental. We would have to cancel the combat training 
center rotations in the Army. That is their premier training 
event, the one that keeps the forces trained and ready at the 
battalion and brigade level. The Army would cancel their 
participation in JCS exercises. Their home station training 
would be reduced to individual-and platoon-level. That is about 
a 30-man unit--level of training. So you lose the combined arms 
aspect, which is critical to maintaining a trained and ready 
army.
    In the Air Force, you have to severely curtail your 
peacetime flying training. And, of course, as a result of that, 
you get air crew readiness degradation. And, of course, these 
great pilots that we have in the Air Force love to fly. They 
want to be trained and ready. And when they see they are not 
getting to fly, then that adds to our pilot retention problem. 
Because the commercial airlines now are hiring at unprecedented 
rates. And they would allow them to fly. And that, 
consequently, is another draw on the pilot shortage that we 
already are experiencing.
    They would have to defer some depot-level maintenance. And 
that means, in essence, that some of the aircraft would be 
grounded as a result of that. And then they would have to park 
all their nonmission-essential vehicles. These are some of the 
things that our services have looked at.
    The Navy and Marine Corps would defer depot maintenance, 
and then they would have to restructure and stretch out their 
modernization program--again, something we have tried to stay 
away from in order to ensure that we continue to be 
technologically ahead of any potential adversary.
    Those are just some specific examples, but it is a rather 
bleak picture, without the supplemental, for readiness in the 
third and fourth quarter.
    Senator Domenici. Thank you.
    Chairman Stevens. Gentlemen, there is a $50 million request 
here for drawdown authority. And I have been told that that may 
be used to transport military forces from other nations to the 
gulf region. Is that what that is for?
    Secretary Cohen. The answer is yes.
    Chairman Stevens. And just to make sure, this is an 
emergency supplemental with money for military personnel, are 
those personnel costs associated exclusively with the overseas 
contingency operations?
    Secretary Cohen. Yes, Mr. Chairman.
    Chairman Stevens. With regard to the costs, when Deputy 
Secretary Hamre was here before us earlier, he said that the 
Department had been compelled to borrow from the fourth quarter 
training, base operations, maintenance, and quality-of-life 
funds already. Will passage of this supplemental request 
restore those funds that have already been taken from the 
fourth quarter for any functions of the Department?
    Secretary Cohen. The answer is yes.
    General Shelton. Yes, sir.

                 Milestones leading to troop reductions

    Chairman Stevens. You mentioned, Mr. Secretary, some 
specific milestones. I think they may be in your statement. 
What events or milestones must we reach before the U.S. 
presence in the gulf would be reduced?
    Secretary Cohen. Well, we have some key military tasks 
which I believe I have outlined, but let me just take a moment 
to talk about them. Maintaining the deterrence of renewed 
hostilities, we are doing that today. We are preventing the 
removal of heavy air defense weapons from cantonments. I can go 
down the list of all of the objectives.
    We are achieving those military objectives. We are also 
seeking the creation of an independent judiciary. We are 
seeking to train local police forces so they can be competent 
and professional. We are trying to persuade our European 
friends to put more money into the IPTF. We think we are making 
some progress there.
    One of the major, I think, accomplishments has been the 
efforts on the part of Bob Gelbard and also on the part of 
General Clark, and other members of the administration, to 
persuade our European friends--and including myself, speaking 
to the NATO members--to help form a special unit that would be 
a buffer between our forces and the local police, until such 
time as they become trained and competent.
    We are looking to see whether or not we can have greater 
economic progress undertaken so that these democratic 
institutions can take deeper root. There is no one fixed date 
in which we could say, now it has been complete. It is an 
ongoing process. And as we see this evolving, again, it looks 
very positive.
    Could it go the other way? My answer is yes. It can go the 
other way more quickly if we do not maintain a presence there. 
I think that that would assure a reversal of the----
    Chairman Stevens. I see the vice chairman is here.
    Senator Inouye, would you recognize members as they come in 
for 5 minutes, and Senator Bumpers first?
    Senator Inouye [presiding]. Sure.
    Senator Bumpers.
    Senator Bumpers. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, let me compliment you on what 
I thought was an excellent opening statement. And, frankly, all 
of your answers have demonstrated a sensitivity and a depth of 
understanding of the issues that gives me great comfort. I 
think you are doing a fine job.
    And, second, I would say we have another tinderbox 
developing there. About 4 years ago, Senator Warner, Senator 
Nunn, and a group of us went to Europe and we visited with the 
president of Macedonia, who predicted and demonstrated a really 
great fear of precisely what is now developing. And that is 
that Albanian refugees are going to come across the border into 
Macedonia, and that that has the potential of involving Greece 
and other countries in the region.
    I thought General Shelton's answers to Senator Hollings was 
excellent. When you start setting a date for getting out, you 
just reveal your hand and you help defeat your very purpose of 
being there. It seems to me that things are very tentative and 
difficult in Bosnia right now, but they are getting better 
every day. So I do not want to put a date on it, and I am going 
to continue to support our troops there, as long as people who 
are more knowledgeable than I am think we ought to be there.
    But, as I say, the cost of the whole thing has the 
potential for being a bigger nightmare to us than perhaps 
Bosnia was. The President seems to be on top of that.

                  Allocation of DOD inflation savings

    Mr. Secretary, I have a question about this request for the 
supplemental. And it goes to this point. The administration has 
granted the Defense Department a $21 billion windfall over 5 
years because inflation was lower than expected. And that 
windfall translates into $796 million for this year, 1998. And 
my question is, where is that money? Can you spend it without 
further congressional approval? And, third, why not use that at 
least to take care of roughly 50 percent of this request?
    Secretary Cohen. If I could, Senator Bumpers, with respect 
to the so-called windfall, the moneys that have been allocated 
to the Defense Department as a result of allowing for the 
inflation costs really have been allocated into a number of 
accounts--most specifically the modernization accounts.
    One problem that always occurred when I was sitting on the 
other side of this table and the Pentagon would come up to 
testify before the Senate Armed Services Committee, General 
Shali would point to a chart, saying, we hope to get up to 
roughly $60 billion on investment, because there has been such 
a depreciation since the height of the cold war in our 
modernization accounts that unless we reverse it and climb to 
$60 billion, we are going to be in deep trouble in the future.
    So when I took over as Secretary of Defense and started to 
preside over the QDR process, I made a pledge to Congress this 
past year. And I said we will hit that $60 billion mark by the 
year 2002, and that next year, I will pledge to you, when I 
come up to make a presentation, there will be $49 billion 
allocated for modernization.
    I was a bit shy. I came up, as I recall, at $48.7 billion. 
But it was a very significant increase in modernization. So 
those dollars which have been allocated to the Defense 
Department really have gone into accounts--readiness accounts, 
also the modernization accounts. And that is where the money is 
being allocated.
    Senator Bumpers. Well, Mr. Secretary, let us just take an 
example. Let us assume that you had so much money, a couple of 
billion dollars, for the F-22, and that a part of the so-called 
windfall due to the lowered inflation is in that program. Let 
us say $100 million of that is in the F-22 program. Does that 
money stay in that program, No. 1? No. 2, can you spend that 
money, even though it is in excess of what you had intended to 
spend, without congressional authority?
    Secretary Cohen. Well, in terms of an F-22 program, by way 
of example, the money is not spent out equally in any given 
year. And one would take whatever excess there was, as a result 
of inflation adjustments or being allowed to keep them, to go 
to a variety of accounts. It is not specifically laid out each 
year so that we cannot touch the money. It would not 
necessarily go into the F-22 program. But there is, I believe, 
the authority, once the money comes back, to spend at a certain 
level.
    If we are going to reprogram, for example, if we are going 
to say, OK, we are going to plus-up F-22 or reallocate the 
money for F-22 into a helicopter program, we would have to come 
back to Congress for reprogramming.
    Senator Bumpers. But you have got $2.8 billion of this 
allocated in 1999. This is $21 billion over a 5-year period. I 
assume that that assumes that inflation will remain at a lower 
level than we had anticipated. Is that a fair statement?
    Secretary Cohen. That is a fair statement.
    Senator Bumpers. In other words, it disappears if inflation 
starts back up?
    Secretary Cohen. That is right.
    Senator Bumpers. And you would use it to take care of 
inflationary increases, in case in the year 2000-01, for 
example, if inflation starts back up, you will have to use a 
part of that $21 billion to take care of that, would you not?
    Secretary Cohen. Right. We are talking budgetary numbers 
now. And it may not be real, as you have indicated. If 
inflation goes up, there is no surplus as such. So we are 
really talking about notional numbers at this point that we 
would have. So we have to plan, as far as our budgeting is 
concerned, that inflation is going to stay where it is or 
possibly lower. But we plan where it is. If it goes up higher, 
then we no longer have that level of funding available.
    I think the Comptroller is sitting behind me, and he can 
perhaps give you a better explanation of how that is allocated.
    Senator Bumpers. Let me suggest this, Mr. Secretary, that 
you provide that to the committee, or just me individually, 
because maybe nobody else on the committee is concerned about 
it. I am concerned about it because I just thought that is a 
place we might pick up $796 million to help offset this.
    I must say, I know you probably gave a very lucid answer to 
my question. I do not understand it. And my time is up. So I am 
going to suggest, if you will, that you send a letter to the 
chairman of the committee, and copy the other committee 
members, about how the inflation money is going to be spent, 
and what role Congress has, if any, in allocating the money.
    Secretary Cohen. Of course.
    [The information follows:]

    As in past years, the Office of Management and Budget 
directed the Department of Defense to reprice its Future Years 
Defense Program (FYDP) based on revised inflation rates. For 
fiscal year 1998, the increased buying power that came from 
reduced inflation in the investment accounts is outweighed by 
increased costs in the military personnel and operations and 
maintenance accounts. For fiscal years 1999 through 2003, the 
savings from reduced inflation were applied to fact of life 
bills, such as increased costs in the Defense Health program 
and a higher than forecasted pay raise, and to protect the 
procurement programs. All of these changes are subject to 
congressional approval through either the reprogramming or 
appropriations process.

                  Funding for natural disaster repairs

    Senator Inouye. Thank you.
    Senator Cochran.
    Senator Cochran. There is a small amount of the budget 
request that has to do with natural disasters. And I know you 
touched on that in your opening statement. Are these funds that 
are needed to be spent in this fiscal year? You are not looking 
at just adding money for the next fiscal year, but these are 
funds that are needed now; is that correct?
    Secretary Cohen. That is correct. This is to help repair 
the damage that Guam suffered, and also facilities in 
California, obviously, with El Nino, and throughout the 
country, as far as ice storms are concerned. So these are funds 
that--we have $123 million, plus there is a $50 million request 
which we would have to come forward in the future to identify 
exactly what those costs are, because some of them are quite 
soft at this point. We have not seen the full consequence.
    But, in Guam, as far as the estimate of what damage has 
been done that needs to be repaired, it is fairly solid.

                     Anticipated funding shortfalls

    Senator Cochran. Are there any other programs where there 
have been shortfalls that were unanticipated, where we would 
have to consider offsets? Is there another supplemental, for 
example, that is not emergency in nature, that will be 
submitted to this committee?
    Secretary Cohen. Well, as I have indicated in my opening 
statement, the supplemental being requested for Southwest Asia 
really only keeps our forces at their current level, not 
counting on any sort of a military action itself. It does not 
take into account the deployment costs or the return costs or 
the reconstitution costs. And we may have to look at those 
costs in 1999.
    But if we were to have to exercise that military option, 
obviously we would have to come back and say this is a big bill 
involved in that.
    Senator Cochran. Is that one of the things that the amended 
budget request seeks to address--and that is things that you 
know really are going to be required to go on and tell the 
Congress about them in advance rather than waiting until after 
the budget has been submitted and the President claims to have 
balanced the budget, submitted the first balanced budget in the 
history of--well, in 30 years?
    Secretary Cohen. Well, with respect to Southwest Asia, all 
we can predict right now is that we intend to maintain the 
current level of operations at least until the end of this 
fiscal year. It could be less, but it could be longer, 
depending upon what takes place over there.
    We cannot predict at this point or project what will take 
place beginning in October, as far as the level of our 
operations are concerned. I would hope that it would be far 
less. But there is no way to predict that right now. So that is 
the reason why we have confined the Southwest Asia request to 
fiscal year 1998.
    With respect to Bosnia, we have, in fact, indicated it is 
$1.9 billion for Bosnia for fiscal year 1999, which would have 
to be an amendment to the budget agreement and a nonoffsetting 
allocation of funds of $1.9 billion, because we anticipate that 
will be the level that will be required for fiscal year 1999.
    Senator Cochran. This may or may not have a budget impact, 
but we know that there has been a tremendous investment made at 
Aviano, and that missions are flown to Bosnia from Aviano. 
Training occurs in that area as well. When this committee 
visited that area, it seemed to me that it was part of a trend. 
And that is, you are trying to close bases, and you have argued 
for closing bases here, having another base closure round. The 
Air Force says, even if we do not agree to another base closure 
round, they may close bases on their own. That was the 
testimony of the acting Secretary of the Air Force.
    Secretary Cohen. Well, there is something called the law.
    Senator Cochran. Well, that is what we thought, too. But, 
anyway, we discussed that a little bit yesterday.

                    Spending on overseas facilities

    But the point is this: It seems that we are making huge 
expenditures of funds in military construction dollars at 
Aviano, at Prince Sultan in Saudi Arabia. The budget request 
contains requests for funding in Korea, where we have 37,000 
troops deployed. Huge expenditures are required in those areas. 
And unlike in Japan, where our costs are being paid by the host 
country, in effect, these costs are being paid by the American 
taxpayers.
    And my question is, in connection with these budget 
amendments which we will consider in due course, to what extent 
are these requests reflecting the decision to make these huge 
expenditures on our own, unilaterally? Other countries are not 
paying the costs in these situations. We do not even have title 
to the land in Aviano, yet we are building these facilities 
over there, again, trying to make sure that our troops are 
taken care of, that they have a place to sleep and have food 
that is available, and it is safe and all the rest.
    What is your reaction to that? Have we gone too far in that 
direction? Shouldn't we be insisting, for example, that our 
NATO allies, or our coalition partners in Southwest Asia, pay 
those costs?
    Secretary Cohen. Well, let me respond, first, by saying 
that we are in Southwest Asia to serve our own interests. I 
wanted to go back, when the question was raised by Senator 
Domenici, he would like a list of all that we have foregone as 
a result of expending. And I will take his numbers and assume 
that they are accurate--$16.1 billion.
    I was going, if I had the chance, to ask the other 
question: What are the consequences were we not to have spent 
this money? And I go back to 1973, when I can recall the gas 
lines that were in this country, and people being shot trying 
to get gasoline as a result of the controversy in the gulf in 
terms of the interruption of the flow of energy.
    So it is not exactly a full comparison if you say, what are 
the consequences to us not having spent this money for 
readiness and modernization? We also have to look at the other 
side of the equation, what would have been the consequences if 
we were not to have deployed our forces there? What would be 
the consequences if Bosnia did, in fact, disintegrate and 
spread throughout Kosovo, down to Albania, involving Greece and 
Turkey? What would have been the requirements of military 
spending at that time, when there would be a conflagration in 
Europe and possibly a shutoff of energy in Southwest Asia? So 
those have to be factored in, as well.

                          Allied contributions

    Obviously, I think that our allies should help bear this 
particular burden, as far as the gulf is concerned and also in 
Bosnia.
    In the gulf, the states, Saudi Arabia and Kuwait, they 
contribute roughly $326 million on an annual basis in the way 
of support. Can they do more? I would hope so. I think the 
committee going there will be very helpful in making them 
understand the pressures that are on our budget, as well.
    The British have been helpful in terms of the no-fly zone 
in the south. The French have been helpful in that respect, as 
well, in helping to patrol the no-fly zone in the south.
    We have had support from other countries, as far as their 
willingness to help us on this particular crisis.
    And so, asking them to do more, many of them are going 
through the same sort of downsizing that we have been going 
through. And so their resources are somewhat limited.
    I have been impressed with the fact that we had 25 
countries line up and say, what can we do, and, can we send a 
carrier? The Brits have a limited carrier capability, but, 
nonetheless, they have two carriers that have been changing and 
coming into the gulf.
    The Canadians offered a frigate, plus some C-130's. 
Australia, New Zealand--there have been a variety of countries 
saying, how can we help?
    Now, they may be limited in their ability, and we may, 
frankly, have a problem in terms of integrating what they would 
like to do with our plan. But General Zinni has worked this to 
the point where we have a very good plan.

                           Policy toward Iraq

    And I wanted to respond to Senator Hollings, as well. That 
this may be a flawed policy. I have never seen a perfect 
policy. But the fact is that Saddam Hussein has been deprived 
of $110 billion over the past 7 years. He has not been able to 
rebuild his military. And when Senator Burns said, gee, this 
money, the oil being sold will go for his military, that is 
incorrect. The oil for food program is something that we have 
supported. And he does not get to use that money. That money 
goes for food and humanitarian matters, as controlled by the 
United Nations and not by Saddam Hussein.
    So there are things that have been done. Again, Senator 
Hollings said he does not want to play games with our military. 
I do not want to play games with our military. And, frankly, 
Chairman Shelton is not going to play games with our military. 
And General Zinni is not going to play games.
    We all understand what it means to put the troops at risk. 
What we have done is put together a plan, should it become 
necessary, that I believe would have a very serious impact upon 
Saddam Hussein's ability to threaten his neighbors. He might 
emerge from that particular type of operation. He will not do 
so in a manner that will allow him to pose a threat to his 
neighbors for the foreseeable future with these weapons of mass 
destruction.
    And so I think that we have had a policy. It is not 
perfect. But the fact is that he has been deprived of what he 
wants to do to rebuild his military. We have got a no-fly zone 
in the north, a no-fly zone, no-drive zone in the south. He is 
contained. He has got inspectors on the ground. And, by the 
way, Scott Ritter is back in Baghdad, over the objection of the 
Iraqis. Butler still retains his authority. And Butler will 
retain the authority to determine whether and when and under 
what circumstances the inspections will be carried out.
    So I think there are a lot of positive aspects to this 
which is being overlooked.

                 Providing for forward deployed forces

    With respect to this particular issue, Senator Cochran, I 
think that you asked a question about based--are we shoring up 
those bases overseas? The answer is yes, to some degree. We 
also want to provide a quality of life, which you just touched 
upon. If we do not have a good quality of life, be it in Aviano 
or be it over in Prince Sultan Air Base.
    Why are we there? Because we had the Khobar Towers bombing. 
We had an inadequate force protection in Saudi Arabia. And so 
it was decided, to protect our troops, we needed to go to 
Prince Sultan Air Base. We have got a vast improvement in force 
protection. We have got quality-of-life improvements. All of 
which is essential. And it comes around to retention.
    If you have got troops who are out there who are either 
exposed to unreasonable risk, their lives are in greater 
danger, but, No. 2, if you have got a quality of life which is 
unacceptable, they are not going to stay. So all of this is 
part of our QDR: shape, respond, prepare.
    We are trying to shape the environment by being forward 
deployed. To be forward deployed means you have got to have 
physical assets and facilities that are acceptable to the men 
and women that we put there. And so, in order to shape the 
environment, we had to be forward deployed. We have to be able 
to respond to all of these contingencies, and also prepare for 
the future. That is part of the whole QDR process.
    And shaping that environment means being forward deployed. 
It means having facilities. It means having good facilities--
the best we can afford. And there is always a tradeoff.
    You mentioned the housing. The housing is of concern to me. 
There are 375,000 housing units that we have in the Department 
of Defense [DOD], two-thirds of which are in need of repair. We 
have not got enough money, on a year-by-year basis, to start 
repairing those. We have turned to a new private incentive, or 
private mechanism, to try to leverage private dollars, almost 
on a 4-to-1 basis, that we would have to spend if we were doing 
it simply through Government financing.
    So we are trying to cope with dealing with housing issues, 
involving the private sector into DOD so we can get more bang 
for our dollars, so to speak, because of the fact that we have 
got a fairly limited amount that we are going to be able to 
spend in the foreseeable future. But there is no easy answer to 
should we close bases here or do you shut down those facilities 
where the action is likely to take place, where we are most at 
risk in terms of our national security interests, and do we 
provide an adequate quality of life for those men and women who 
we ask to serve over there. We try to make the best allocation 
that we can under the circumstances.
    Chairman Stevens [presiding]. Senator, did you have another 
question?
    Senator Inouye. Yes, I do.

                  Additional natural disaster funding

    Mr. Secretary, in your request, there is $50 million 
assumed for El Nino damages. The Navy and Marines have already 
indicated, as of the time of submission, that their costs will 
exceed $46 million. The National Weather Service tells us that 
El Nino will be around for at least another 2 months. So we 
should be anticipating additional damage.
    Can you assure us that you will be advising us of 
additional costs, if such should come about, before we act upon 
this bill?
    Secretary Cohen. The total request for natural disasters we 
have at $123 million, plus the $50 million that we would have 
to come forward and identify what those costs would be for. 
Those cost figures are not very hard right now, so we want to 
have some flexibility. But we have to come back to you to 
demonstrate what those would be used for.
    Senator Inouye. In your supplemental for Southwest Asia, 
you are assuming that the funding will be for the rest of the 
year. What impact would it have on the troops if they had to 
stay there on a wartime readiness basis for the rest of the 
year? Or are we rotating them?

                        Rotation plan for troops

    General Shelton. We have a rotation plan that we are in the 
process of developing right now. But the plan is to rotate. And 
the cost for doing some of those rotations are included in the 
supplemental request.
    Senator Inouye. So we will not insist that they remain 
there, for the rest of the time, on a wartime readiness level?
    General Shelton. No, sir; we will not. As a matter of fact, 
they will remain at a readiness level, ready to carry out the 
operation as long as it appears that they need to stay in that 
position. But, for example, we go with about a 120-day rotation 
with the air crews that are there. The carriers turn over--in 
fact, we have one that is going through the Suez tonight that 
is en route to a normal turnover in the gulf. So the forces 
will be rotating that are on station right now.
    Senator Inouye. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Stevens. Could you supply us for the record the 
specific amounts that were borrowed or withheld from each major 
command in the military service? I think those would be 
important for us on the debate on the floor on this bill. I 
would hope, and I have already asked and you said they were 
going to be repaid, but I think members should know where the 
money was borrowed and how much has to be put back.
    [The information follows:]

    Thus far, commanders have not been forced to spend fourth 
quarter funds for Bosnia and Southwest Asia. To ensure 
readiness was not adversely affected, the full amount of 
contingency funds previously appropriated were distributed, and 
commanders were advised to assume expeditious approval of the 
supplemental request. Therefore, commanders currently have 
adequate financing for ongoing operations without using fourth 
quarter funds. However, action on the supplemental request is 
needed by early April to ensure the Services can continue their 
normal rate of activity for the remainder of the fiscal year. 
Early in the third quarter, the Services must assess their 
funding posture and make responsible management decisions. In 
some cases, they will be required to pull funding forward from 
the fourth quarter and may have to curtail some activities to 
maintain the current level of contingency operations. The 
structure of the fiscal year 1998 supplemental request 
(emergency and non-offset) has enabled the Services to direct 
their major commands to continue operating at the approved 
budgeted level without mission degradation. A non-offset 
supplemental is necessary to shield these commands from program 
turbulence and potential funding delays. Approval of the 
supplemental in its current form is absolutely critical to 
protect readiness and avoid serious disruption of core Service 
programs.

    Chairman Stevens. I am told that now we have two aircraft 
carriers, an amphibious group of marines, various Air Force 
units, and an Army brigade with supporting units; that the Army 
and the Air Force is going to rotate every 4 months, the Navy 
and Marine Corps every 6 months. Is that the plan now for this 
deployment, at least until something changes? If they would 
have to accelerate, I am sure that might be changed.
    General Shelton. That is the plan as of right now, Mr. 
Chairman.
    Chairman Stevens. It is my understanding--and this will be 
my last question, and Senator Byrd may be coming and that is 
why we are waiting--we pay 26 percent of NATO, we pay 23 
percent of the U.N. costs, we are paying about one-half of the 
cost of the Bosnia operation, and we are now going to pay more 
than 90 percent of the cost of the Iraq operation. And none of 
those are contributing to our modernization. None of them are 
at all helping with improving the quality of life or trying to 
catch up with the backlog in maintenance and repairs, as you 
have just mentioned, of the housing. We have the same thing 
with regard to aircraft, tanks, everything.
    We are building up an enormous backlog. Now, can you tell 
me, is there any hope we can get any change in our contribution 
to these international organizations? And those figures were 
computed, the percentages, were computed in the fifties. We are 
still paying on the basis of being the largest military in the 
world, which we are not any longer.
    Now, what hope do we have that we are going to get some of 
those international contributions reduced?
    Secretary Cohen. Mr. Chairman, I cannot predict what the 
success will be. I think it is important that we ask that there 
be changes in the allocation.
    A lot of changes have taken place since these formulas were 
created, or established. I was thinking, as one of the--I 
cannot recall who mentioned this point--about the contributions 
that each of the countries are making. It may have been Senator 
Hollings. But Germany, for example, you may recall that about 5 
or 6 years ago, I attended a function, the Wehrkunde 
Conference, and I questioned, why couldn't the Germans do more, 
in terms of participating in out-of-area activities? And it may 
have been more recent, maybe only 4 years ago or 3 years ago.
    And at that time, you may recall that the Germans had taken 
the position they could not be deployed anywhere where they had 
occupied territory during World War II. I found that to be an 
unacceptable argument. And, in fact, you had people like the 
minister of defense, who also agreed that that was 
unacceptable. They took it to their supreme court. They now 
have a supreme court ruling. At that time, it was considered to 
be quite an improvement that they could have personnel aboard 
our AWACS in Bosnia. Now, they have almost 3,000 troops in 
Bosnia.
    And so there have been a lot of changes that have taken 
place as a result of the money we have spent on PFP, the 
Partnership for Peace, program. You now have countries who are 
exercising regularly with NATO, who want to become part of 
NATO, which is another issue I know the chairman is very 
concerned about. But you see these countries who have tried to 
formulate their policies, structure their militaries in ways 
that are comparable, or complementary at least, to the United 
States. That has worked to our advantage.
    That is why we had Hungary say, how can we help in 
Southwest Asia? Poland said the same. The Czechs said the same. 
And so you have got countries who, 5 or 10 years ago, it would 
have been inconceivable that they would be willing to 
participate in some of these activities.
    So there are a lot of changes that have taken place. I 
think it is important that we raise this. I cannot impress upon 
all of you enough the importance that the congressional 
delegation meant to the conference in NATO the first week in 
February. Senator McCain, Senator Warner, Senator Robb, Senator 
Smith, and so many others who were there, said, wait a minute, 
you are asking us to go it alone in Southwest Asia, while you 
are demanding that we be the ones who carry the load in Bosnia. 
That is not going to happen. We are not going to accept that.
    As a result of those kinds of statements, showing 
congressional support for saying we are going to insist upon 
more, you suddenly had a catalyst. And Chancellor Kohl 
responded that day: How can we help? Other countries called 
immediately, saying, we are prepared to send an aircraft, we 
are prepared to send a ship; how can we help?
    So I think it is important that you, as chairman of the 
Appropriations Committee, that other members of the committee 
remind our friends in Europe and elsewhere that this is not 
something that the United States is going to continue to bear 
the majority of the burden on.
    Chairman Stevens. Well, I may not succeed, but I intend to 
offer a condition to the NATO expansion that will say that we 
will consent to that expansion only when they reduce our 
participation costs in NATO to less than 20 percent. I do not 
see why, if we have three new nations coming in, our costs 
should increase. They should be able to take off of our 
shoulders some of the cost we have borne in the past. It was 
our costs, our expenditures that led to their freedom.
    Now, by the same token, this problem, as Senator Byrd said, 
of constantly following the United Nations dictates, when they 
do not put any money up to enforce their dictates, and we are 
called upon to do it all, I think that our people are going to 
really tire of supporting either NATO or the United Nations if 
this cost squeeze on our future does not change. We will not be 
able to modernize our force and be a superpower after 2005 if 
we continue expenditures like we have outlined here today, 
unless we have another revenue stream from somewhere.
    I am told Senator Byrd will be here in a minute.
    I have just conferred with the leadership, and I told them 
that I have, in fact, indicated to the committee that we want 
to go to the area, and we will visit our friends in the Persian 
Gulf and in Bosnia and in Belgium.
    It will be a fast trip, but we intend to take them a 
message: We control the funding for this operation, and this 
committee, the country, ought to be alerted to the fact that I 
believe the majority of this committee agrees with what Senator 
Byrd said this morning. We cannot jeopardize our balanced 
budget process by continually taking these expenditures off 
budget. And unless there is another revenue stream, it means 
that we will demand that the United States withdraw from these 
areas if we do not get some help.
    We are very serious about it, Mr. Secretary and General. We 
put the survival of our country first, and that means 
modernization of these forces and continuation of our 
acquisitions as planned in your QDR. Currently we will have to 
reduce that, as you know, in 1999 if we stay within the caps 
that we have now.
    Do you have any comments, Senator?
    Senator Inouye. You are doing very well, sir.
    Chairman Stevens. Senator Cochran, do you have a comment?
    Senator Cochran. No; I have asked all the questions I need 
to ask. I do agree with you that we are going to have to insist 
that we get a better rate of participation financially from our 
NATO partners and from our other coalition partners. That was a 
point that I was making when you were voting.
    I think the time has come for the administration to 
recognize that we are no longer going to shoulder a 
disproportionate share of the financial responsibility for 
conducting these operations. We have got to insist on more from 
others.
    Chairman Stevens. Senator Byrd, you have the opportunity to 
have the last word, sir.
    Senator Byrd. I thank the Secretary and General Shelton. 
They have listened to a great deal of expressed views here from 
this side of the table. They have not had much of an 
opportunity to respond. But I think that the hearing has been 
of great service.
    I am sure they can understand body language as well as that 
which flows from the lips. And I think they understood the 
message today. I am sure they will be able to carry it back to 
the others in the administration.
    I would simply sum it up by saying I am not suggesting we 
jerk our men out of there all of a sudden, but I am suggesting 
and I just want to add this postscript, I am suggesting that we 
get busy and get our so-called allies and friends to join in 
the effort. And if they cannot commit forces, they can commit 
money. With respect to biological and chemical weapons, there 
are many countries that are not in the immediate neighborhood 
who are reachable by this kind of weapon. And to name one would 
be Japan, and one that is in the area, Saudi Arabia.
    If they are concerned that they may be offending this man, 
they ought to consider that he might not be around. They ought 
to take a chance on being with the United States and the 
others, who see the importance of stopping him. So perhaps, as 
you say, they are concerned because they have to live with him. 
Well, he will not be here always, just as Robert Byrd will not. 
He will not be around always. And if we get into a real 
conflict over there, he may go sooner than even Robert Byrd.
    So they ought to consider about what it is going to be like 
after he is gone, as well as if he is still around. He leads 
pretty much of a charmed life. But we have got to get off this 
kick of following the United Nations around, rag-tagging after 
the United Nations, letting that be the kite and we are the 
tail. I got into this when this administration first came into 
power. They sent people into Somalia. And they were going to 
engage in nation-building there. And it was mission creep. And, 
well, take a lesson.
    When I came to this Senate, we did not follow the United 
Nations. We were a power in our own right. We exercised 
leadership. And the Congress and the administration both felt 
that way about it and worked in that fashion.
    But since this administration came in, it has been mainly 
follow the United Nations. And I am not for that. I am for 
exercising our own leadership and for both the executive and 
the legislative working together. Do not follow their 
recommendations, hitch the tail onto their kite and then come 
with hat in hand to the Congress, asking for money. Start here. 
This is the place to start. Those people up there in the United 
Nations are not going to--there are very few of them who are 
going to lay their money on the barrel head. And there are not 
many of them who are going to come up with manpower.
    They are long on advice and moral lecturers. But when it 
comes to putting something on the barrel head, they are not 
there. So I think it is about time to stop and take note and 
come back to our original thinking, and follow the concept that 
was expressed by Abraham Lincoln and George Washington.
    I will not go any further. Just thank you both for coming. 
You will have an opportunity, maybe at another day, to respond 
longer and more fully.
    Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to William S. Cohen
            Questions Submitted by Senator Richard C. Shelby
    Question. Mr. Secretary, I am concerned that during the last few 
years, the Administration has neglected the Gulf War Coalition. In the 
last few months, it appears as if there is no international resolve to 
contain Saddam Hussein's long-term strategy regarding Iraq? How does 
the present response to the immediate crisis with Saddam Hussein fit 
into your broader strategy?
    Answer. Our long term objective is to see that Iraq is readmitted 
to the international community and abides by acceptable norms of 
international behavior. Much must happen before this goal can be 
realized. First and foremost, Iraq must honor its U.N. obligations; 
demonstrate to U.N. inspectors that it has destroyed its WMD programs, 
account for over 600 Kuwaiti missing and prisoners of war--numbers 
which include non-combatant Kuwaiti civilians; return property and 
weapons stolen from Kuwait; renounce terrorism; and, end internal 
repression, specifically, the marsh Arab community in southern Iraq and 
the Kurds in the north.
    While the recent crisis with Iraq was over the issue of access for 
U.N. inspectors, the broader issue is Iraq's compliance with and 
respect for its U.N. obligations. We will not allow Iraq to flout the 
will of the international community. Our military deployments in the 
region, and those of our coalition partners, were of critical 
importance in producing a viable diplomatic solution to the recent 
crisis. U.N. Secretary General Anan has clearly acknowledged this. We 
are now in a testing phase to see whether Iraq will live up to the 
commitments it made in the February 23 MOU to provide immediate, 
unconditional and unrestricted access to all sites the weapons 
inspectors choose to visit.
             continuing deployment of u.s. troops in bosnia
    Question. The President recently proposed an open-ended deployment 
of U.S. troops to Bosnia in support of the Dayton Accords. Our nation's 
pilots have been enforcing the no-fly zones over Iraq for more than six 
years. Do you foresee any likely end to these missions? With neither 
mission likely to end in the near future, do you consider these 
regional deployments to be semi-permanent missions, such as our 
commitment to protect South Korea? Why do you continue to fund these 
operations through the services' O&M accounts as if they are temporary 
contingencies?
    Answer. The NATO-led military mission in Bosnia was never intended 
to be a permanent deployment but rather one to assure the successful 
implementation of the Dayton peace process. U.S. force levels in Bosnia 
have continually been reduced from the initial deployment of 30,000 
troops in December 1995 to a new level of 6,900 in June of 1998. NATO 
will pursue a transition strategy with the aim of progressively 
reducing force levels taking account at the time the security situation 
in theater and the implementation of the Dayton Agreement. NATO's 
intent is to review tasks, the security environment and risks at about 
six-month intervals with reductions in force size beginning, if 
possible, after the national elections in September 1998.
    Rather than focus on a specific end date, the aim is to achieve an 
end state of a secure environment adequate for the consolidation of the 
peace without further need for a NATO-led military force. As the 
President said, ``the mission must be achievable and tied to concrete 
benchmarks not a deadline. We should have clear objectives that when 
set--when met, will create a self-sustaining secure environment and 
allow us to remove our troops.''
    I cannot say how long our stay will be. We have developed aims 
which we consider necessary in creating a sustainable peace. The basic 
idea is to create the conditions necessary for non-military instruments 
(diplomatic, institutional, economic) to be able to work effectively 
without the presence of a large NATO-led military force.
    In reference to the fiscal year 1998 supplemental and fiscal year 
1999 budget amendment, DOD did not request any funds to establish 
permanent infrastructure in Bosnia. However, the request does include 
$47 million in fiscal year 1998 and $30 million in fiscal year 1999 to 
improve the quality of life for our troops stationed in Bosnia. The 
request for the Army includes $42 million in fiscal year 1998 and $30 
million in fiscal year 1999 for infrastructure upgrades to improve 
living and operating conditions in Bosnia for our troops. The Air Force 
includes $5 million for refurbishment of an existing building into a 
contingency dormitory due to the removal of an existing tent city in 
Bosnia.
       bosnia and southwest asia--supporting the two mrc scenario
    Question. What specific impact does the President's decision to 
extend the deployment of U.S. troops beyond the June 30 deadline have 
on our ability to respond with military force to other crises?
    Answer. Participation in Bosnia (SFOR) does not seriously reduce 
the ability of U.S. forces to fight and win a regional conflict 
elsewhere. Combat forces most needed in the opening phase of a regional 
conflict would still be available to deploy on short notice. There is, 
of course, some degradation in the preparedness of SFOR deployed units 
to immediately engage in combat missions elsewhere. Some period of time 
would be needed to withdraw, repair and replace equipment, retrain, and 
prepare for deployment to a Major Theater War. This is the normal cost 
of doing business.
                                 ______
                                 
             Questions Submitted by Senator Lauch Faircloth
    Question. Please list, by year, for the past three years, what 
priorities would have been funded if not for the fact that there have 
been U.S. troops in Bosnia?
    Answer. The Department has spent a total of $4.8 billion in fiscal 
year 1996 and fiscal year 1997 for operations in Bosnia to support the 
Dayton Peace Accords. It is estimated that an additional $2 billion 
will be required for fiscal year 1998 to continue this effort. If the 
U.S. had not been involved with the heavy commitment in Bosnia, then 
the Department would have allocated additional resources towards our 
modernization effort to replace our aging systems and incorporate 
cutting edge technologies into the force to ensure continued U.S. 
military superiority over time.
    Question. How much is reserved in the current plans for the budget 
for fiscal year 2000 for maintaining troops in Bosnia?
    Answer. No funds have been budgeted for operations in Bosnia during 
fiscal year 2000. The Defense topline set in the bipartisan budget 
agreement did not anticipate costs for Bosnia beyond June 1998. If it 
is decided that the United States will continue to have a role in 
Bosnia during fiscal year 2000, we will have to address this 
requirement in next year's budget.
    Question. What has been the total cost to date of our effort in 
Bosnia?
    Answer. The incremental costs of DOD participation in operations in 
and around the Former Yugoslavia, predominately Bosnia, totaled $2.5 
billion for fiscal year 1996 and $2.3 billion in fiscal year 1997, and 
costs of $2 billion are projected for fiscal year 1998. These Bosnia 
costs cover the preparation, deployment and sustainment of U.S. forces, 
as well as the costs associated with enforcement of the no-fly zone 
over Bosnia, and support of other U.N. observer related missions in the 
Area of Responsibility (AOR). Incremental costs totaling $347.4 million 
in fiscal year 1995, $292 million in fiscal year 1994, $138.8 million 
in fiscal year 1993, and $5.8 million in fiscal year 1992 were incurred 
by the DOD to support humanitarian-related missions in, and aircraft 
operations over, the Former Yugoslavia.
               departure date of u.s. troops from bosnia
    Question. What is the new departure date from Bosnia?
    Answer. Rather than focus on a specific end date, the aim is to 
achieve an end state of a secure environment adequate for the 
consolidation of the peace without further need for a NATO-led military 
force. As the President said, ``the mission must be achievable and tied 
to concrete benchmarks, not a deadline. We should have clear objectives 
that when set--when met, will create a self-sustaining secure 
environment and allow us to remove our troops.''
    I cannot say how long our stay will be. We have developed aims 
which we consider necessary in creating a sustainable peace. The basic 
idea is to create the conditions necessary for non-military instruments 
(diplomatic, institutional, economic) to be able to work effectively 
without the presence of a large NATO-led military force.
                    humanitarian projects in bosnia
    Question. Are U.S. troops involved in any humanitarian projects in 
Bosnia?
    Answer. SFOR and U.S. forces continue to focus on their key 
military tasks which include: Deterring the resumption of hostilities 
by maintaining a military presence, monitoring, and if required, 
enforcing compliance with the military aspects of the GFAP, 
contributing to a secure environment which allows civilian 
organizations to accomplish civil tasks, ensuring force protection/own 
freedom of movement, operating Joint Military Commissions, and 
enforcing rules/procedures governing the use of and controlling the 
airspace over Bosnia. One humanitarian program that U.S. forces have 
been actively involved in is demining. The goal of the SFOR-regulated 
military demining program is to assist the Bosnian Entity Armed Forces 
in establishing a self-sustaining indigenous demining capability. U.S. 
soldiers are conducting a ``train the trainer'' program within the 
Serb, Croat, and Bosniak Armies to establish a cadre of trained 
demining instructors able to instruct the basic deminers course 
syllabus.
           u.s. troop participation in nonsecurity activities
    Question. What activities in which U.S. troops participate are non-
security related?
    Answer. Noticeable progress has been achieved in all areas of the 
GFAP, particularly SFOR's contribution to a stable environment. SFOR 
and U.S. forces assistance to civil authorities remains within 
available resources and subject to the primacy of the military mission. 
Examples of these activities include economic reconstruction (road 
reconstruction, bridge building/repair and opening the railroad) and 
democratization (election assistance). Although these activities appear 
to be non-security related, they indeed are, as reconstruction projects 
provide lines of communication for SFOR troops/equipment and 
democratization efforts contribute to a stable security environment 
which fosters continual progress toward democratic reform.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. If the funding for Bosnia will not be provided until 
October for operations throughout the next fiscal year, why is it an 
emergency? What is the ``sudden, urgent, usually unforeseen occurrence 
or occasion requiring immediate action?''
    Answer. The President announced in December 1997 his decision to 
support an extension of the U.S. mission in Bosnia past June of this 
year. There was insufficient time to assess the planning and resource 
implications of the decision for inclusion of a budget quality cost 
estimate of the mission extension in the fiscal year 1999 budget 
request. More importantly, however, the Defense topline set in the 
bipartisan budget agreement did not anticipate costs for Bosnia beyond 
June 1998. As a result, the Administration decided to propose an 
``emergency,'' non-offset fiscal year 1998 supplemental funding request 
for Bosnia. To cover fiscal year 1999 Bosnia costs, the Administration 
decided to submit a non-offset budget amendment that is also designated 
as an ``emergency'' to ensure that Bosnia is considered as Congress 
sets its spending priorities before deliberations on the fiscal year 
1999 Budget Resolution are completed.
    Question. We know now that we will need to pay bills in Bosnia for 
next year. We've known that for quite some time. Wouldn't it be more 
responsible to budget the $1.9 billion as part of the defense 
appropriations bill and within the defense cap for fiscal year 1999 
rather than outside of it?
    Answer. The Defense topline set in the bipartisan budget agreement 
did not anticipate costs for Bosnia beyond June 1998. To cover fiscal 
year 1999 Bosnia costs, the Administration decided to submit a non-
offset budget amendment that is also designated as an ``emergency.'' 
The President's fiscal year 1999 budget request contains an allowance 
for undistributed funds to cover contingency events, such as Bosnia and 
natural disasters. The Administration considers Bosnia funding 
requirements to have first claim on the undistributed allowances, and 
we have informed the relevant committees in Congress of this. In sum, 
we have structured the fiscal year 1998 and fiscal year 1999 Bosnia 
funding requests in such a way that resources are not diverted from the 
Department of Defense's current and future appropriation levels. By so 
doing, we hope to avoid adverse effects on military readiness.
    Question. There is no emergency request for domestic spending as 
part of the fiscal year 1999 budget. Why should the Pentagon be treated 
differently than domestic agencies?
    Answer. The Pentagon is not being treated differently than the 
domestic agencies. The President's fiscal year 1999 budget request 
contains an allowance for undistributed funds to cover unanticipated 
contingency events. This allowance would cover requirements in the 
domestic agencies as well as the DOD for unanticipated situations such 
as natural disasters (e.g., floods, tornadoes, etc.) as have occurred 
this past year.
                                 ______
                                 
              Questions Submitted to Gen. Henry H. Shelton
            Question Submitted by Senator Richard C. Shelby
                  bosnia-american military objectives
    Question. General Shelton, during your confirmation hearing before 
the Senate Armed Services Committee, you raised several concerns about 
the duration and conduct of the Bosnia operation. Considering the 
President's intention to extend the U.S. mission beyond the June 30 
deadline, please explain your view of the objectives for American 
military personnel deployed to Bosnia and the surrounding Balkan 
states?
    Answer. SFOR and the U.S. military forces participating in it will 
continue to deter a resumption of hostilities and provide support for 
civil implementation in a manner similar to the current approach of 
SFOR. SFOR's objective will be to consolidate the gains achieved to 
date while sustaining the current pace of civil implementation. This 
approach will encourage the implementation process to become 
progressively more self-sustaining without exceeding SFOR's current 
level of intensity and involvement. Overall, the aim is to establish 
conditions under which Dayton implementation can continue without the 
support of a major NATO-led military force.
                                 ______
                                 
             Question Submitted by Senator Lauch Faircloth
                       bosnia-u.s. participation
    Question. With the information you have today, do you anticipate 
that the United States will have to participate in any way in the NATO 
Follow-on Force in Bosnia?
    Answer. As the President certified in his 4 March letter to the 
Speaker of the House, the continued presence of U.S. armed forces, 
after June 30, 1998, in Bosnia and Herzegovina is required in order to 
meet the national security interests of the United States.
                                 ______
                                 
           Question Submitted by Senator Frank R. Lautenberg
                       bosnia-u.s. participation
    Question. Will NATO troops continue to arrest war criminals if they 
do not surrender voluntarily and the tactical situation permits?
    Answer. NATO political guidance for the development of the OPLAN 
for the follow-on force states that ``current policy towards detention 
of indicted war criminals would remain in force and should continue to 
be implemented rigorously.'' In that regard, current guidance 
authorizing SFOR soldiers to detain persons indicted for war crimes if 
they come into contact with them in the performance of normal 
activities and when the tactical situation permits, would remain in 
force.

                         conclusion of hearing

    Chairman Stevens. Thank you very much. We are going to do 
our best to mark this bill up next Thursday afternoon, and, 
hopefully, get it to the floor the following week. We are 
working with our colleagues in the House to try and see if we 
can effect a miracle, and that is to have both bills be the 
same. But you must say your prayers to have that happen.
    Thank you very much.
    Secretary Cohen. Thank you, Mr. Chairman.
    General Shelton. Thank you, Mr. Chairman.
    [Whereupon, at 11:52 a.m., Friday, March 6, the hearing was 
concluded, and the committee was recessed, to reconvene subject 
to the call of the Chair.]
</pre></body></html>
